<html>
<title> - GULF COAST RECOVERY: AN EXAMINATION OF CLAIMS AND SOCIAL SERVICES IN THE AFTERMATH OF THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[Senate Hearing 112-41]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-41
 
                          GULF COAST RECOVERY:
                  AN EXAMINATION OF CLAIMS AND SOCIAL
      SERVICES IN THE AFTERMATH OF THE DEEPWATER HORIZON OIL SPILL

=======================================================================



                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
66-618                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
CHRISTOPHER COONS, Delaware          MARK KIRK, Illinois

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSAY GRAHAM, South Carolina
                                     SCOTT P. BROWN, Massachusetts
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Shelby...............................................     4
    Senator Vitter...............................................     5
Prepared statements:
    Senator Landrieu.............................................    37
    Senator Shelby...............................................    40

                               WITNESSES

                       Thursday, January 27, 2011

Kenneth R. Feinberg, Administrator, Gulf Coast Claims Facility...     7
Craig Bennett, Director, National Pollution Funds Center, U.S. 
  Coast Guard....................................................     9
Ve Nguyen, Member, United Louisiana Vietnamese American 
  Fisherfolks....................................................    10
Rear Admiral Eric B. Broderick, D.D.S., M.P.H., Deputy 
  Administrator, Substance Abuse and Mental Health Services 
  Administration, U.S. Department of Health and Human Services...    24
Albert L. Keller, Executive Vice President, Gulf Coast 
  Restoration Organization, BP America, Inc......................    28
Tom Costanza, Executive Director, Office of Justice and Peace, 
  Catholic Charities, Archdiocese of New Orleans.................    29
Lori R. West, Director, of International Relief and Development 
  and Current Chairman, South Mississippi Voluntary Organizations 
  Active in Disasters............................................    31

                     Alphabetical List of Witnesses

Bennett, Craig:
    Testimony....................................................     9
Broderick, Rear Admiral Eric B.:
    Testimony....................................................    24
    Prepared statement...........................................    53
Costanza, Tom:
    Testimony....................................................    29
    Prepared statement with an attachment........................    63
Feinberg, Kenneth R.:
    Testimony....................................................     7
    Prepared statement...........................................    42
Keller, Albert L.:
    Testimony....................................................    28
    Prepared statement...........................................    59
Nguyen, Ve:
    Testimony....................................................    10
    Prepared statement...........................................    51
West, Lori R.:
    Testimony....................................................    31
    Prepared statement...........................................    81

                                APPENDIX

Additional statements and information submitted for the record:
    Photos submitted by Senator Landrieu.........................    85
    Letter submitted by Senator Landrieu to Bob Dudley on Mental 
      Health Oil Spill...........................................    89
    Letter submitted by Senator Landrieu to Mr. Feinberg.........    91
    Letter referenced by Senator Landrieu........................    94
    Mental Health Dollars Chart..................................    96
    Technical Assistance Network Chart...........................    97
    Appeals Threshold Chart......................................    98
    GCCF Data Chart..............................................    99
    GCCF Organization Chart......................................   100
    Gulf Coast Claims Facility Denial Letter.....................   101
    Proposal Letter from State of Louisiana......................   102
    Congressman Scalise letter to Mr. Feinberg...................   128
    Feeding America Letter.......................................   130
    Louisiana Association of Nonprofit Organization Letter.......   136
Questions and responses submitted for the record from:
    Mr. Feinberg.................................................   145
    Mr. Bennett..................................................   163
    Mr. Broderick................................................   165
    Ms. Harkavy on behalf of Mr. Keller with attachments.........   166


 GULF COAST RECOVERY: AN EXAMINATION OF CLAIMS AND SOCIAL SERVICES IN 
            THE AFTERMATH OF THE DEEPWATER HORIZON OIL SPILL

                              ----------                              


                       THURSDAY, JANUARY 27, 2011

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:45 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu, Carper, Nelson, Shelby, and 
Vitter.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. The Subcommittee on Disaster Recovery 
will come to order. I am pleased to be joined by my colleague, 
Senator Shelby from Alabama, and we are hoping to be joined by 
several other colleagues. I am expecting Senator Vitter, 
Senator Bill Nelson and Senator Carper to join us as the 
afternoon goes on.
    I want to thank our witnesses, in particular for making the 
special effort to be here today because of the challenges with 
weather and transportation, so I really thank you, because we 
did not want to cancel this important hearing and I am very 
pleased that we can proceed as scheduled.
    Let me go ahead and quickly begin with an opening statement 
and then turn it over to Senator Shelby, and as other Members 
come, they will also be allowed to make a brief opening 
statement, and we want to get right into our witness 
presentations.
    I again thank all the witnesses for making a special effort 
in these weather conditions to join us for this important 
hearing.
    As you all will note or know, last week, the Graham-Reilly 
Oil Spill Commission released its report on the technological 
and regulatory failures that caused the Macondo well to explode 
on April 20th last year, taking the lives of 11 men and 
creating one of the largest environmental catastrophes in 
American history. It is important that we thoroughly review 
this accident and implement new measures to ensure a robust and 
competitive offshore energy industry that operates as safely as 
possible. But there are some other obligations that we have, as 
well.
    This particular report, nor was this Commission charged 
with this task, and so they did not examine claims payments and 
the human side of this tragedy. They are focused on the 
technological and the general business side of offshore oil and 
gas drilling. But there is another side that we are here to 
examine today, and that is the human side of this disaster.
    Four-hundred-and-eighty-three thousand people in the Gulf 
have filed claims so far for lost wages and revenues. They are 
currently experiencing severe challenges getting timely 
payments or accurate information in some cases about their 
claims. Roughly 194,000 of these claimants are located in 
Louisiana, 162,000 are in Florida, 68,000 are in Alabama, 
52,000 in Mississippi, and 10,000 in Texas. So these claimants 
are located across the entire Gulf Coast.
    The Commission report does not address these claims but to 
say that after everything is over, we should do an after action 
report. But right now, this Subcommittee is today and has been 
for a while focused on this human side, the claims process, 
helping make people as whole as possible from the harm they 
have suffered as a result of this catastrophe.
    Fishermen, deck hands, and restaurant workers put out of 
work by the oil spill, small business owners whose businesses 
have been threatened, many of them still struggling to make 
payroll to keep their doors open, are each entitled to just 
compensation under the law, but the system is not yet working, 
in my view, as well as it should be. Thousands of Gulf Coast 
residents have lost their jobs and are fighting to feed their 
families, keep their homes, and preserve their way of life. For 
a while, clean-up jobs and emergency payments made this 
situation tolerable, but the clean-up jobs--the well is now 
capped--are diminishing or substantially diminishing, and the 
seafood and tourism markets have not yet recovered to their 
pre-spill levels.
    Today, we are here to discuss the payment system 
established by Mr. Feinberg under the authority of the White 
House and British Petroleum (BP) to compensate people for lost 
earnings, property damage, and subsistence losses resulting 
from the spill. We will also learn about work that nonprofit 
organizations are doing along the Gulf and the continued 
challenges they face in providing assistance to spill-affected 
communities.
    Frequent visits, and I have made many, to coastal 
communities and dozens of conversations with constituents and 
briefings with local leaders lead me to believe that the claims 
determinations have not been as consistent as they need to be 
or as transparent as they could be. People have struggled to 
obtain information about their claim on a timely basis.
    In my view, non-governmental organizations (NGOs) have also 
been somewhat marginalized and under-resourced throughout this 
recovery process, and it seems like we are making a similar 
mistake that we made in the aftermath of Hurricanes Katrina, 
Rita, Gustav, and Ike by underestimating the power and the 
effectiveness of community-based NGOs to help the Vietnamese 
community, for instance, or the Hispanic community, for 
instance, or a certain group of elderly people in a community 
from submitting and accessing information about their rightful 
claims.
    Mental health issues, including domestic violence and 
suicide, are on the rise, and they are becoming an increasing 
challenge for the region. A study released last July by Ochsner 
Clinic revealed that 30 percent of interviewees in Louisiana, 
Mississippi, Alabama, and Florida suffered from serious 
psychological distress and cited disproportionate impacts among 
children and low-income households.
    Today, we are going to hear a very heartwarming story with 
a sad ending, from a Vietnamese oysterman who successfully 
piloted a boat of refugees out of Vietnam many years ago, made 
a new life for himself fishing off the waters of the Louisiana 
coast for decades, until suddenly this oil spill caused him to 
lose his business and his livelihood. He represents a great and 
growing number of Vietnamese American fishermen. Over 80 
percent of the Vietnamese Americans in the Gulf region are 
connected to the seafood industry. We are going to hear from a 
member of their community today.
    We also want to hear from NGO representatives that were 
asked by BP to present social service proposals last summer and 
have never received a response, despite backing from 53 
organizations in the State of Louisiana and another 32 
organizations in Mississippi.
    And finally, BP has made a pledge of $20 billion to cover 
legitimate claims and placed a portion of those funds in escrow 
under Mr. Feinberg's control. He is here with us today, and I 
appreciate him being here to give us an update.
    The function of the Gulf Coast Claims Facility (GCCF) is to 
compensate people fairly for their losses, to discharge BP's 
fiduciary obligations under the Oil Pollution Act (OPA) of 1990 
with regard to those claims, and to offer a simpler, speedier 
alternative to prolonged litigation, which continued for 20 
years after the Exxon Valdez oil spill. We are hoping it will 
not take 20 years to compensate people fairly in the aftermath 
of this spill.
    The Gulf Coast Claims Facility took over individual 
business and claims from BP on August 23. From May to August, 
BP was directly managing all claims. And so far, the Gulf Coast 
Claims Facility has paid out $3.3 billion to 168,000 claimants. 
That is what our records show. If that information is not up to 
date, we will get the new numbers today.
    Mr. Feinberg has traveled extensively to the Gulf. Senator 
Shelby, I am sure you have seen him or been with him in 
Alabama. I have attended several of the town hall meetings in 
Louisiana. You have made some commendable program changes along 
the way and I want to acknowledge that you have been flexible 
when things have been brought to your attention, first, by 
agreeing not to subtract vessel of opportunity earnings to use 
local firms to provide people with information about their 
claims, to provide interim payments, and other important 
changes along the way. So we are very grateful for those 
program changes.
    But on the other side, there are many challenges that 
remain. One of the things we are going to explore today is that 
while BP did provide $1 million to Louisiana charities for 
emergency relief and $52 million for mental health services 
along the Gulf. But without case management, financial 
counseling, claims assistance, and direct aid for food, rent, 
and mortgages, many families are still struggling.
    So in conclusion, I am pleased to be joined today, as I 
said, by several colleagues. I want to thank Feeding America 
and the Louisiana Association of Nonprofit Organizations (LANO) 
for submitting written testimony for this hearing. I would also 
like to acknowledge the White House staff that is in 
attendance. Congressman Steve Scalise for his continued efforts 
to improve the claims process on behalf of his constituents. I 
want to recognize Darryl Tate with the United Methodist Church 
in Louisiana and everyone else that has joined us for this 
important hearing.
    We have a great deal of business to cover, so let me turn 
it over to Senator Shelby for his opening statement and then we 
will get right into our first panel of witnesses. Senator.

              OPENING STATEMENT OF SENATOR SHELBY

    Senator Shelby. Thank you, Madam Chairman, for letting me 
join your Subcommittee here today.
    While the Deepwater Horizon rig has been capped, the boom 
recalled and the media on to the next story, many may think 
this disaster is over, but this is not true. Like many 
Alabamians, I remain extremely concerned regarding both the 
short- and the long-term effects that the oil will have on the 
Gulf Coast's economy and the ecosystem. Alabama's Gulf Coast 
region may take decades to recuperate and downstream effects 
could cripple the region for years to come.
    Since the oil started pouring into the Gulf last April, 
Alabama has seen a nearly 50 percent drop in tourism-generated 
dollars and a substantial loss of jobs. Tourism revenues lost 
to Alabama's coastal economies as a direct result of the oil 
spill are estimated at between $850 million and $1 billion, a 
figure that does not include the additional losses to the 
fishing industry and the shipyard repair and maintenance 
operations.
    The federally mandated fishery closures have resulted in a 
significant loss of income for the entire seafood industry, 
fishermen, shrimpers, bait and tackle shops, and processors. 
Alabama's fishing industry represent one of the largest 
economic engines in the State, accounting for more than $800 
million in sales annually and nearly 18,000 jobs. The economic 
impact on the commercial and recreational fishing industry 
already is severe and extensive. I think we must ensure that 
individuals and businesses are compensated now, but also put in 
place mechanisms to assist them with rebuilding and restoring 
efforts as the Gulf continues to recover from the disaster.
    I have met with Mr. Feinberg, who is with us today, several 
times since the Gulf Coast Claims Facility was created, yet I 
continue to have serious concerns regarding the claims 
determinations made by this organization. Like the entire Gulf 
Coast, Alabama is at a critical juncture. The Gulf Coast Claims 
Facility is not acting with appropriate urgency as I thought 
they would. Nine months since the oil spill, 57 percent of 
claims in Alabama remain unpaid. This amounts to 38,605 
individual and business claims that have not received one penny 
in funding. That is a startling statistic to me.
    Further, from January 12 to January 24 in Baldwin County, 
the hardest-hit region in Alabama, only 28 claims were 
processed. That is less than three claims a day. Let me 
reiterate, Alabama has 38,604 outstanding claims and the Gulf 
Coast Claims Facility is currently only processing three 
Alabama claims a day. Moreover, there is no distinction given 
by the Gulf Coast Claims Facility in their statistics between 
how many claims were paid and how many claims were underpaid. I 
am sure that this is not an insignificant figure.
    When Mr. Feinberg and I met in both November and December, 
I relayed these issues to him, and one of the largest issues 
that needed to be addressed was the lack of a clear formula on 
how a claim is determined. Filers, I believe, deserve 
clarification as to why their claims were denied, if they are 
denied, or why their payments were less than expected, if that 
be the case.
    On December 16, Mr. Feinberg told me here at the Capitol 
that the formula for claim payments would be made publicly 
available on the Gulf Coast Claims Facility website. Six weeks 
later, this information is still not available and I believe 
this is unacceptable, Madam Chairman. Those affected by the 
spill need to know that there is transparency, clarity, and 
consistency in the payment process.
    Finally, as we continue with the recovery efforts along the 
Gulf Coast, Congress needs to swiftly address the allocation of 
the Clean Water Act fines from the BP oil spill. The entire 
Gulf Coast faces an enormous ecological and economic disaster 
with an estimated impact of as much as $3 billion in my State 
of Alabama alone. Under the Act, BP could be liable for 
penalties up to $20 billion. Congress, I believe, needs to 
ensure that all five affected Gulf States are treated equitably 
when these fines are disbursed. Each State should have the 
ability to use these funds how they see fit to restore the 
economic and ecological damage caused by the spill. The impact 
to each State is unique and there needs to be flexibility in 
spending the Clean Water fines in the matter which best meets 
their needs.
    And while the national press has moved on, the Gulf Coast 
continues to face the challenges from one of the largest 
disasters in our Nation's history. The damages caused by the 
oil spill could last years. Our residents and businesses are 
severely hurting, and we need a commitment by all stakeholders 
to the Gulf Coast's full recovery. In particular, it is my 
expectation that the Gulf Coast Claims Facility will uphold and 
follow through on its obligation to the people of the Gulf 
Coast. Mr. Feinberg has assured me of that. He has been a man 
of his word in the past.
    Thank you very much, Madam Chairman.
    Senator Landrieu. Thank you, Senator Shelby, and you can 
rest assured that this Senator will continue to focus on those 
issues, and I thank you for your help and support.
    Senator Vitter, we would be happy to take opening 
statements now if you want to do that, or wait a minute----

              OPENING STATEMENT OF SENATOR VITTER

    Senator Vitter. Thank you, Madam Chairman. I will be 
relatively brief.
    First of all, thanks for your leadership and for this 
hearing. Thanks to all the witnesses and for your work.
    I just wanted to stress three points in my opening 
statement, and then I will follow up on all of these points in 
questions.
    First of all, Mr. Feinberg, thanks for your continuing 
work. It is obviously very important for all of our area. But I 
just wanted to stress a concern and urge you not to declare a 
victory quite yet based on the numbers and statistics that you 
always present, and I apologize if I missed any of your 
comments, but normally when we meet or when we are in public 
settings, you certainly cite the three-plus billion dollars 
issued and the tens of thousands of claimants paid. My concern 
is I really do not think that is an accurate or full snapshot 
picture and I would urge us to look at other metrics and make 
sure we all stay in it for the long haul.
    In particular, I think there has been a big emphasis on the 
quick claims. I believe over 50 percent of claims are quick 
claims. In Louisiana, I think it is over 57 percent, the sort 
of $5,000 payments. And in fact, that means that the folks most 
impacted, most hurt, most directly impacted by the spill are 
not taking those quick claims because their claims are more 
complicated and bigger and so they are still waiting or 
standing in line.
    Just as an example, a huge percentage of the quick claims 
have gone in Louisiana to tourism industry-type people, and 
they have losses--I am not arguing against that--and a tiny 
percentage, maybe 5 percent, to fisheries people. And obviously 
the fisheries folks are the ones most impacted and first 
impacted. So I would caution all of us to make sure we are in 
it for the long haul and use full metrics and make sure we get 
to the right outcome over time.
    Related to that, there have been some suggestions, 
including from some of our colleagues from New York, that you 
be appointed to this new 9/11 project coming out of the First 
Responders bill. Please take this as a compliment and nothing 
else, but I do not think you can possibly take on another job 
until this is fully closed out, and I invite you to say that 
publicly. [Laughter.]
    Third and finally, and this is not your bailiwick, we 
continue to struggle with the economic devastation of the spill 
and the resulting moratorium, including the continuing de facto 
moratorium. Now, this story has left the front pages of the 
national papers. Evidence of that, the President, 
unfortunately, did not even mention this in the State of the 
Union. But economically, the Gulf Coast continues to be hit 
hard by all of this, and it is not the spill directly, it is 
the de facto moratorium which continues. And this would be 
tragic whenever it happened. Coming in the middle of a serious 
recession, it is triply tragic.
    Just as an example, our State, Louisiana, before this 
month, which was a slight and welcome uptick, we have had eight 
straight months of increasing unemployment. That is not a 
coincidence with the spill and the moratorium. That is a direct 
result of the drilling moratorium, including the de facto 
moratorium, eight straight months of increasing unemployment 
catching up to the national average, and we need to end that, 
and coincidentally, we need domestic energy production from the 
Nation. So certainly, I will continue to work with my two 
colleagues here on that.
    Thank you, and I look forward to your testimony and 
questions.
    Senator Landrieu. Thank you, Senator Vitter, for those 
observations and comments.
    Let me quickly introduce the panel, and I am going to 
shorten these introductions.
    Mr. Feinberg has been introduced before. He is the 
Administrator of the Gulf Coast Claims Facility. He has 
testified before this Subcommittee and others. Prior to taking 
on this challenge, he handled claims for the family members of 
9/11 victims, Agent Orange, and the Virgina Tech shooting 
incident, so he comes to this job with decades, literally, of 
experience, and he is going to need all of that to get this 
right. We are looking forward to hearing from him today.
    Craig Bennett is our second witness. He serves as Director 
of the U.S. Coast Guard National Pollution Funds Center. The 
National Pollution Funds Center (NPFC) was established by the 
Oil Pollution Act of 1990. They manage the Oil Spill Liability 
Trust Fund (OSLTF) and review claims decisions by the 
responsible party under the law. We are looking forward to 
hearing from you on that. He has been with the Coast Guard for 
22 years.
    Mr. Nguyen is the witness I referred to in my opening 
statement. He piloted a refugee boat out of Vietnam and fled 
for his freedom with his family, got to the shores of South 
Louisiana, where many South Vietnamese were relocated, along 
the Gulf Coast--Mr. Shelby, I am certain in Alabama, as well--
and managed to get through all of that, only to be shut down 
with this oil spill and is now on the verge of losing his 
business. And he, like many fishermen, and particularly in the 
Vietnamese community where subsistence fishing is common, is 
having a very difficult time specifically navigating this 
claims process.
    So, Mr. Feinberg, let us begin with you. I think we have 5-
minutes for each witness to offer their testimony and then we 
will proceed to questions.

TESTIMONY OF KENNETH R. FEINBERG,\1\ ADMINISTRATOR, GULF COAST 
                        CLAIMS FACILITY

    Mr. Feinberg. Thank you very much, Madam Chairman. I am 
testifying today before three Senators who I have known for a 
while and who have been among my most vigorous supporters in 
trying to get this program to work right and have been, 
thankfully, some of my most constructive critics in pointing 
out in good faith how we can improve the program, and I am 
grateful for that criticism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Feinberg appears in the appendix 
on page 42.
---------------------------------------------------------------------------
    The program--just as Senator Vitter predicted, I go right 
away to the statistics--the program is working. We have paid 
out in 5 months almost $3.5 billion to 170,000 people, 
businesses, individuals in the Gulf region. Baldwin County, I 
believe is the second county in the Gulf that has received the 
most funds from the Gulf Coast Claims Facility, due in part, I 
guess, to Senator Shelby's insistence that we focus on Baldwin 
County, which we are doing.
    Also, it is true that in the last 5 weeks, as Senator 
Vitter has pointed out, 85,000 people and businesses have 
accepted the quick payment option. We have paid out in the last 
5 weeks about $700 million to individuals and businesses who 
either have already been compensated and feel that this is 
additional compensation that they will accept in return for 
releasing their claim or cannot document any additional damage. 
I do not know which, but 85,000 people have taken the quick 
payment option.
    Now, transparency, a big point with the three Senators 
today. We are taking steps on this. First, on Tuesday, February 
2, about a month later than I promised, Senator Shelby, but on 
February 2, we will post publicly the criteria and the 
methodologies being used to calculate final payments and 
interim payments. We are going to give a 2-week public comment 
period for any business or any individual before we implement 
it. Before we start making these final payments and interim 
payments, everybody in the Gulf will have an opportunity, as 
will the Senators, to comment on what we propose to do. And if 
there are comments that we should change it before we implement 
it, but the final payments and the interim payments, I assure 
the Senators, will commence in February to about 90,000 
businesses and individuals requesting a final payment and about 
40,000 businesses and individuals requesting an interim 
payment.
    And, Senator Shelby, the reason it took longer than I had 
promised you, I have to get this right. The Final Payment 
Program requires a lump sum payment for all present and future 
damage, and I am trying, talking with all the experts, with the 
citizens of Alabama, with the businesses in the Gulf, to find 
out from them, what are the long-term implications of this 
bill. Nobody knows for sure. And it has taken me longer than I 
had hoped to gather that information together. But it will be 
announced on Tuesday. It will be a 2-week public comment 
period. And at the end of that period, we will finalize that 
program and begin to commence to make those payments.
    I also want to pick up on a point. Senator Landrieu advised 
me to do this 3 months ago. We have now put in place in 
Alabama, in Louisiana, Florida, and elsewhere local people, 
live bodies in the claims facility offices to meet with 
claimants, to answer their questions. They are not representing 
them in a court of law. They are not offering legal advice. But 
instead of people being frustrated by calling 1-800 numbers or 
not getting answers or getting inconsistent answers, we are 
trying to deal with that by hiring local people who will 
address local individuals with local problems.
    We have received in the last 5 months--the Coast Guard has 
been fabulous. We have been working with the Coast Guard since 
day one. Craig is here. I acknowledge their support for this.
    The Gulf Coast Claims Facility has received about 500,000 
claims. I have to get back to Senator Shelby in writing. When 
he says we have only processed X percent or three claims, he--
you take what Senator Shelby says with a good deal of 
credibility. I have to check this. It does not ring true, 
except it is coming from Senator Shelby. I will get an answer 
to you in writing on this, Senator.
    Senator Landrieu. Thirty seconds, if you could.
    Mr. Feinberg. So, in sum, just as an opening comment, we 
are taking steps to deal with transparency. We are dealing 
closely with Catholic Charities, Madam Chairman, and those 
other nonprofit service providers. We have no authority under 
the facility to pay them. That is a BP obligation, if anybody 
has that obligation. And I look very much forward to the 
questions where we can get into some of this in more detail.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you. We are going to go to Mr. 
Bennett, but I want to clarify something. You said, in the last 
5 weeks you did what? What was the number you threw out?
    Mr. Feinberg. We have paid out in the last 5 weeks about 
85,000 quick payments totaling almost $700 million.
    Senator Landrieu. OK. Thank you. I wanted to get that 
clear.
    All right, Mr. Bennet. And we have been joined by Senator 
Nelson from Florida and he will join us in our round of 
questioning. Senator Bennett. I mean, Mr. Bennett.

TESTIMONY OF CRAIG BENNETT, DIRECTOR, NATIONAL POLLUTION FUNDS 
                    CENTER, U.S. COAST GUARD

    Mr. Bennett. Good afternoon, Madam Chairman. I appreciate--
--
    Senator Landrieu. You have been here long enough. We are 
going to have to promote you. Twenty-two years.
    Mr. Bennett. Thank you. Good afternoon, Madam Chairman and 
other Members of the Subcommittee. I am grateful for this 
opportunity to testify today about the role the National 
Pollution Funds Center, which I have headed for these past 2 
years, plays in implementing the liability and compensation 
provisions of the Oil Pollution Act of 1990, particularly as 
they relate to the Deepwater Horizon oil spill.
    Let me start by saying that I have a deep appreciation for 
the people and environment of the Gulf. I graduated from high 
school in Louisiana. I met my wife and got married in Houston, 
Texas. And I spent time raising my two children in St. 
Petersburg, Florida. So I remain mindful of my Gulf Coast 
heritage as I serve the NPFC.
    The National Pollution Funds Center serves a number of 
functions with respect to the funding of oil spills. First, it 
provides funding for Federal oil spill response through the Oil 
Spill Liability Trust Fund, which this office administers. The 
fund was authorized in 1990 with the passage of OPA to ensure 
no delay in the Federal response to a spill and for those 
spills where there was not a viable responsible party. Fund 
revenue sources include a per barrel tax on oil, cost recovery 
from responsible parties, interest income, and Clean Water Act 
(CWA) fines and penalties. The NPFC also ensures that the 
responsible party is advertising its availability to pay claims 
for removal costs and damages. If the responsible party denies 
a claim or does not settle it within 90 days, the claimant may 
present the claim to the fund. Finally, the NPFC recovers 
Federal response costs and any claims that are paid out of the 
fund from any and all responsible parties.
    As of January 24, the fund had obligated or expended $684 
million for the Federal response to the Deepwater Horizon oil 
spill. That was the removal actions of the clean-up. These 
costs included Federal agency oil removal costs as well as 
funds provided to the Natural Resource Damage (NRD) Trustees to 
initiate assessments.
    A key policy of OPA is that the polluter pays, not the 
taxpayer. The Federal Government has consistently billed 
responsible parties for reimbursement of costs paid out of the 
fund. To date, nine bills have been sent to responsible parties 
for the Deepwater Horizon expenses, of which the first eight, 
totaling $606 million, have been paid by BP. The ninth bill, 
for $26 million, was presented on January 11 and I anticipate 
it being paid soon.
    OPA requires that I ensure that responsible parties are 
advertising for and receiving claims. They should also 
advertise that if not settled in 90 days or denied, the 
claimant may come to the fund or file an action in court. The 
NPFC only receives claims which a responsible party has not 
settled to the satisfaction of the claimant, in this case BP, 
which has delegated the claims process for personal and 
business claims to the GCCF, and the NPFC process provides a 
venue to adjudicate any claims that were denied or were not 
acted on through that normal process.
    Information about the NPFC claims process is available on 
our website. It is also on the BP, the Gulf Coast Claims 
Facility, and the Restore the Gulf websites, as well. This 
information includes a claimant's guide in English, Spanish, 
Vietnamese, and Cambodian, as well as a list of frequently 
asked questions. Recognizing that not everyone is on the web, 
claimants are also informed of our claims option by the GCCF 
Claims Center and their call center. Eighty percent of the 
claimant inquiries that we have to our call center at the NPFC 
tell us that they were referred to us by the Gulf Coast Claims 
Facility.
    Denial letters to claimants for final claims will also 
include notification of the claimant's right to submit a claim 
to the NPFC or to pursue litigation. The reasons for denial are 
generally due to insufficient documentation to support the 
claim, or the documentation showed the claim was not payable 
under OPA, or the responsible party had already paid the claim. 
Again, claimants who are denied by the NPFC have 60 days in 
which to submit additional information for reconsideration.
    In conclusion, individuals, communities, and businesses 
have suffered as a result of this spill. The National Pollution 
Funds Center is working to ensure a robust Federal response, 
that those damaged from this spill are compensated, and that 
the polluter pays. The Department and the Administration are 
working to ensure a full recovery throughout the affected 
States.
    Thank you for the opportunity to testify today and I look 
forward to your questions.
    Senator Landrieu. Thank you, Mr. Bennett.
    Our next witness is Ve Nguyen. As I said, he is a resident 
of Plaquemines Parish, a commercial fisherman. He has worked in 
the waters of the Gulf for over 29 years. He has been directly 
impacted by this spill, and we have a translator from the State 
Department here with him. Mr. Nguyen.

TESTIMONY OF VE NGUYEN,\1\ MEMBER, UNITED LOUISIANA VIETNAMESE 
                      AMERICAN FISHERFOLKS

    Mr. Nguyen. [Speaking through interpreter.] Members of the 
Subcommittee and honored guests, my name is Ve Nguyen. I have 
been harvesting oysters in the Gulf of Mexico for 29 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nguyen appears in the appendix on 
page 51.
---------------------------------------------------------------------------
    [Mr. Nguyen speaking in Vietnamese.]
    Senator Landrieu. OK. Let her translate. Just a minute. Go 
ahead.
    Mr. Nguyen. [Speaking through interpreter.] On behalf of 
the United Louisiana Vietnamese American Fisherfolks, thank 
you, Senator Landrieu, for calling this hearing and special 
thanks for your staff for inviting me today.
    I would like to take this opportunity to do three things: 
To share my story, to present to the Subcommittee a request, 
and to ask Mr. Feinberg a question.
    Senator, if I may, my story is a common story in the 
Louisiana Vietnamese American fishing community. As of the 
spring of 2010, approximately 30 to 50 percent of all 
commercial fishers living in the Gulf of Mexico region are 
Vietnamese American, while more than half of every other 
Vietnamese American in the region are connected to the seafood 
industry. In my neighborhood of Plaquemines Parish, 100 percent 
of the Vietnamese households are fishermen. Louisiana fishermen 
of all ethnic backgrounds are independent and hard-working 
people.
    As refugees to the United States after the end of the 
Vietnam War, we all chose to build our lives anew in these 
fertile waters of the Gulf Coast and carry on the fishing 
tradition and customs of our ancestors. I was raised on my 
father's fishing boat in Vietnam. During the Vietnam War, I 
used my naval skills to help the South Vietnamese Democratic 
Government defy communism----
    Senator Landrieu. Thank you. Go ahead.
    Mr. Nguyen. [Speaking through interpreter.] At the end of 
the war, I carried dozens of people on my boat to escape the 
communist regime. In the United States, our people carry on the 
fishing tradition of our ancestors despite the hate crimes from 
the Ku Klux Klan. I taught our children the love of the water 
and appreciate its creatures. My daughter is a marine biologist 
and my son helps me on the boats.
    After I was forced to flee my country to the United States 
and the United States took me in, I pledged an allegiance to 
the United States that includes paying my taxes. Unless I have 
no other choices, I do not seek government assistance. But with 
the oil spill, like many of my fellow fishermen, I have had to 
stand in line for handouts and Food Stamps.
    Before the BP Deepwater Horizon oil spill, my wife and I 
would be out on the sea by 6 a.m. and return in the late 
evening. Like all of the other fishermen in Louisiana, we 
typically hold back a portion of our catch, 5 or 10 percent, to 
bring home for personal consumption in the family, to 
contribute to community events, and to barter with other 
fishermen for other seafood.
    I face many challenges in the Gulf Coast Claims Facility 
process, but I would like to take this opportunity to highlight 
one in particular. Mr. Kenneth Feinberg received over 16,000 
emergency payment claims for subsistence use, including mine, 
and Mr. Feinberg only paid one claim of $3,000. Mary Queen of 
Vietnam Community Development Corporation (MQVNCDC), a 
Louisiana contracted technical assistance provider, helped me 
packaging my subsistence use claim. Mr. Feinberg denied my 
neighbor's emergency payments, loss of subsistence use claim 
almost that was identical to mine.
    I, therefore, would like to make our request to members of 
the Senate today, the United Louisiana Vietnamese American 
Fisherfolks, in solidarity with 14 other organizations request 
that the Members of this Subcommittee to clarify, reaffirm the 
definition of subsistence use in the OPA of 1990, fully 
acknowledging and recognizing the local non-taxable practice of 
bartering community gifts and family consumption of commercial 
fishing communities of all ethnic backgrounds. The definition 
is clearly intended by Congress in 1990 and comports fully with 
the Department of Wildlife and Fisheries (WLF) definition.
    Moreover, the calculation of emergency compensation for 
loss of subsistence use should be based on the quantity of the 
food that commercial fishermen subsisted on before the spill 
multiplied by the current retail value of the seafood. This 
formula has been summarized and defended by the White Paper 
submitted by the United Louisiana----
    Senator Landrieu. Thirty seconds, please.
    Mr. Nguyen. [Speaking through interpreter.] Finally, I have 
a question for Mr. Feinberg. On behalf of the 14 grassroots 
organizations, I would like to ask Mr. Feinberg why only the 
people with $250,000 minimum payment can claim. Why do not low-
income people have the right to appeal to the panel?
    Senator Landrieu. That is an excellent question, and first 
of all, thank you for your testimony, Mr. Nguyen. We really 
appreciate it.
    Why do we not start with that question, Mr. Feinberg, if 
you do not mind starting with that, and we are going to go 
through a 5-minute question round. Go right ahead.
    Mr. Feinberg. Thank you very much, Madam Chairman. Anybody 
can appeal, regardless of any amount. In fact, you can appeal 
to the Coast Guard if you have no amount and were denied any 
amount. So nobody at all, nobody who files a lost income or 
lost wage claim with the GCCF, nobody is foreclosed from an 
appeal to the U.S. Coast Guard, and Mr. Bennett can give you 
the statistics on that.
    It is true that I did establish in the GCCF an additional 
limited right to appeal for claimants receiving over $250,000 
or my awarding the claimant over $500,000. I decided that an 
additional claim right should be awarded to those high-impact 
claimants. But any claimant can appeal to the Coast Guard from 
my determination, and the reason I did not have a broader 
appeal right, I am worried very much about slowing down the 
process, which I am getting criticized about. Having appeals 
and more appeals is an inefficient way to get money out the 
door and that is why I limited it. But everybody has a right to 
appeal.
    Senator Landrieu. But just to be clear, anyone at any 
amount can appeal to the Coast Guard.
    Mr. Bennett, you run that program, so is that your 
understanding?
    Mr. Bennett. Yes, Senator.
    Senator Landrieu. OK. So if anybody gets a denial letter, 
whether they have asked for $3,000 or $5,000 or $500,000 or $5 
million, they get a denial letter, or if they are compensated 
$1 million with no explanation and they thought they deserved 
$5 million, they could go to you.
    All right. Let me start with my line of questioning. First, 
I want to acknowledge for the record that in the 5 months that 
BP managed this claims process, and, of course, they had to 
stand it up very quickly and it was unprecedented, they only 
distributed $359 million Gulf-wide. In the 5 months that Ken 
Feinberg has been on the job, you have distributed $3.3 
billion, so you should be commended for that.
    However, one of my first questions is that people in my 
State, now I do not know about Florida or Mississippi or 
Alabama, but in Louisiana, Mr. Feinberg, they go to the 
centers. They try to get an update on their claim, and all they 
are told is, quote, ``Your claim is under review.'' They cannot 
get access to the status of that review. Is it the beginning, 
the middle, or the end? They cannot get a confirmation that 
their documentation is either in order or completely 
disorganized. And I think that is a real problem with the 
system and I would like you to respond.
    And also on this subject, one of the things I think many of 
us had asked you to do in the beginning is to have these 
offices staffed with people who the communities knew, local 
workers, and people who had knowledge or at least access to the 
computer database to give people some update. So would you 
please respond, and what are you going to do to correct it?
    Mr. Feinberg. As I said in my opening statement, A, it is a 
fair criticism. B, there are 500,000 claims that have come in 
since August 23. We have picked up on your suggestion, which 
was made for the first time months ago, we have expanded our 
local people in these 35 claims offices so that individuals 
will be not as frustrated in trying to get an answer about 
deniability or the calculation of award----
    Senator Landrieu. But do these employees in some of these 
law firms that have been, although they are not there for legal 
purposes but for advocacy purposes, do they have access to the 
database, because the Worley employees who were there who are--
you could define as local, it is a local company, most 
certainly, in Hammond, Louisiana. I am sure people work for 
their company from all over the country, but many from the Gulf 
Coast. But I want you to testify, do they have access to the 
database, because they tell me no, and are the other firms that 
you are bringing in going to have access so people can get an 
update when they need one?
    Mr. Feinberg. The answer is yes. I will not say they have 
access to the confidential database. They will have access to 
the----
    Senator Landrieu. To the status?
    Mr. Feinberg. That is correct, to give status as to 
eligibility, status as to denials, status as to the amount of 
the money that has been calculated.
    Senator Landrieu. OK. We are going to follow that up. This 
is similar, along the same lines. Claimants receive a denial 
letter. I do not have a copy of one with me, but I am going to 
ask the staff, if they do, to give it to me before the hearing 
is over, and if not, it will be up on our website. When claims 
are denied or awards are lower than expected, people are not 
receiving any commentary or detail. We know you requested 
$10,000. Here is a check for $2,000. The reason you did not get 
the additional $8,000 is because of X, Y, and Z. There does not 
seem to be any explanation, and people then get very 
frustrated. They do not even know where to begin. Should they 
completely refile? What did they not understand? This is a real 
problem.
    Mr. Feinberg. It is a problem. Now, I must say, the great 
majority of people do not have this problem. But I agree with 
you. If even a few people have this problem, it is a big 
problem.
    Senator Landrieu. OK. So you are testifying that denial 
letters or letters accompanying reduced award amounts include 
detailed explanations, because that is not our understanding.
    Mr. Feinberg. No, I am not suggesting that. I am suggesting 
that, for the most part, when people get a denial letter, even 
if there is not an explanation, they understand why there has 
been a denial. The number of people--the critics are a 
relatively small number, but it is too many. I agree, it is too 
many.
    Senator Landrieu. All right----
    Mr. Feinberg. But we are dealing with this problem, as I 
said, by putting people in these local offices that have the 
ability to come up with live answers to help these people 
understand.
    Senator Landrieu. OK. Senator Shelby.
    Senator Shelby. Thank you. Senator Landrieu, thank you very 
much for bringing forth this meeting. It is timely.
    Mr. Feinberg, I want to reiterate again, it has been 9 
months since the oil spill. I will give these numbers to you 
again. Fifty-seven percent of claims in my State of Alabama 
remain unpaid. This amounts to 38,604 individual and business 
claims that have not received one penny in funding. Further, 
from January 12 to January 24 in Baldwin County, Alabama, this 
year, the hardest hit region in Alabama, as you referenced, 
only 28 claims were processed. That is less than three claims a 
day. You mentioned the numbers earlier. All the claims and the 
statistics that I referenced here came from your website. They 
are from your people. If they are wrong, correct them for the 
website and correct them for the record. We are relying on your 
numbers.
    Now, having said that, how many of the paid claims were 
paid in full? How many of the claims that you paid were paid in 
full, and if you do not have this, can you get this for the 
record----
    Mr. Feinberg. I will have to get that for the record.
    Senator Shelby. A lot of people have complained, especially 
in Baldwin County, about partial claims, and they are desperate 
for the money. I know you are trying to expedite a lot of this 
and I know you are acting in good faith.
    The claims process has surely slowed down. Why is that, 
could you tell us for the record?
    Mr. Feinberg. It has slowed down, briefly. Now, it has not 
slowed down in terms of 85,000 people in Alabama and elsewhere 
who have accepted the quick payment. The problem I have run 
into, and it is about to be solved by next Tuesday, I want to 
make sure before setting out a public methodology for 
processing final payments that we take into account, as you 
pointed out, Senator, the future of the Gulf. And it has taken 
me an extra month to gather together all of that expert 
information, and next Tuesday, I will announce, as I promised 
you I would, a final payment methodology and criteria.
    Senator Shelby. Mr. Feinberg, we have known each other a 
long time and we have dealt in good faith, and I believe you 
are dealing in good faith. I appreciate the times you have gone 
to the Gulf Coast, not just my State of Alabama but the whole 
Gulf Coast. I know you have a very difficult situation. I know 
that. It is complex. But to our constituents that are 
frustrated, especially my area of Alabama, they have seasonal 
economy. The winter is here. They lost a lot back in the 
summer. They are not sure if they can make it until the spring. 
And we have talked about this before and a lot of your people 
have.
    So if you can process those claims--only bona fide claims. 
I would never want you to pay one cent that was not 
meritorious. But I would want you to pay the meritorious 
claims. And by now, you should have some methodology to 
differentiate between the real and the apparent, so to speak. 
That is all I am asking you, and I think that is all my 
constituents in Alabama want, is they want to be compensated 
for bona fide things and they are not all getting it and that 
is why I am here today.
    Mr. Feinberg. And you have my word, Senator, that I am 
diligent in understanding that concern.
    Senator Shelby. Thank you a lot.
    Senator Landrieu. Senator Vitter.
    Senator Vitter. Thank you, Madam Chairman, and Mr. 
Feinberg, again, thanks for your continuing work. I know it is 
not easy.
    Let me go back to some of the points in my opening 
statement. Will you publicly state that you will not take the 
9/11 First Responder job or any other big public project until 
this Claims Facility is fully closed down?
    Mr. Feinberg. Senator, I do not see how I can. I do not 
want to publicly state absolutely I will not, because, first of 
all, nobody has asked me. There has been no inquiry whatsoever 
that I do this. I am just reluctant, before the President of 
the United States or the Attorney General of the Department of 
Justice (DOJ) or whatever, I am reluctant to make that 
commitment before I know anything about it. But I assure you 
that my wife agrees with you, Senator. Absolutely. [Laughter.]
    Senator Vitter. Well, I am disappointed with your response. 
It would be flattering and perhaps appropriate for you to be 
asked, but, of course, you have to decide the answer, and I 
would suggest, given that this is a big unfinished job, that 
the answer should be public and unequivocal that you will not 
do that and would not do anything like that until this facility 
is completely closed down.
    Mr. Feinberg. I take that criticism as valuable. Let us see 
what unfolds over the next few weeks.
    Senator Vitter. OK. Well, I am a little surprised and very 
disappointed with the response.
    Is the compensation package of you and your firm for this 
work public information?
    Mr. Feinberg. Yes. It is public and it has been public for 
the last 3 or 4 months.
    Senator Vitter. OK. Great.
    Mr. Feinberg. It is on the website, I think, but it is 
certainly public.
    Senator Vitter. OK. I have not seen it, and that is only my 
fault, apparently, if it is public. If you could just get us 
that detailed information, I would appreciate it.
    I talked about these quick payments. Of the 124,000 
claimants who have been paid, do you know what percentage are 
quick payments?
    Mr. Feinberg. I can say this. We paid 168,000, as Senator 
Landrieu pointed out, 168,000 emergency payments. Since that 
time, since those 168,000 were paid, we have paid an additional 
85,000, approximately, quick payments in the last 5 weeks. So 
we have made 168,000 emergency payments plus 85,000 quick 
payments.
    Senator Vitter. OK. We may be using slightly different 
terms. My understanding is that of all payments to claimants, 
over half are quick payments, and in Louisiana, it is over 57 
percent. Does that sound like it is roughly accurate?
    Mr. Feinberg. No, I do not think so. I mean, it may be. I 
would have to go back and do the math. The 85,000 quick 
payments have all been made in the last 5 weeks as supplemental 
payments. I would have to go back and do the math and give you 
those statistics.
    Senator Vitter. OK, again, that is the statistics I have, 
and the general point is that a huge percentage of claimants 
paid are quick payments.
    Mr. Feinberg. That is true.
    Senator Vitter. My understanding is over half. Again, in 
Louisiana, my understanding is over 57 percent.
    If you look at those quick payments, my understanding is 
that 92 percent go to retail, service, restaurant-type folks.
    Mr. Feinberg. I do not know how anybody has that 
information. I can check and see. I doubt that is true.
    Senator Vitter. OK. And my understanding, that compared to 
that, about 5 percent go to seafood-related folks. Now, there 
are a lot less seafood-related folks than the other category. I 
understand that. But I think there is something else at work, 
which is that a lot of the payments, a lot of the success, a 
lot of the numbers that you cite, and it is appropriate to cite 
it, is essentially the low-hanging fruit. It is essentially the 
easiest cases to do. And my concern is that the folks most 
impacted, most hit, and sometimes in most dire straits are not 
the low-hanging fruit and are still waiting and in dire 
straits. Do you have a general response to that?
    Mr. Feinberg. I do not--I would characterize it 
differently. I would say that those who have accepted the quick 
payment are either individuals who feel that they have been 
adequately compensated and here is additional compensation that 
is available simply by signing a release or individuals who 
cannot document any further damage and therefore see the wisdom 
of accepting these payments.
    I agree completely with you, Senator, that fishermen and 
shrimpers and commercial businesses dependent on Gulf resources 
are waiting impatiently for the Final Payment and the Interim 
Payment Program, which will be announced next week, because 
they are the ones with long-term decisions to make about 
whether to take the money and issue a release or wait and see 
over time how the future will develop in the Gulf.
    Senator Vitter. OK. Well, again, let me just state my 
conclusion, and people can reach different conclusions. I think 
these numbers, which are strong in dollar figures, in claimants 
paid, in many ways, do represent the easiest cases, and my 
concern is that the folks most hard hit are by definition 
generally not in that category.
    Mr. Feinberg. Senator, I just want to make one other point, 
which is it is a very interesting point you are making. I get 
criticized for the opposite. I get criticized that people who 
take the quick payment are desperate. I do not believe this 
myself, but this is the argument I hear. It is the exact 
opposite of your argument. It is, Mr. Feinberg, people who take 
the quick payment cannot afford to wait. They are tempted. They 
are desperate, so they take the quick payment because they need 
it desperately.
    You are making a different argument, which I tend to share, 
and that is that people, commercial fishermen, shrimpers, 
people who have a long-term view of the Gulf, are in desperate 
need--Senator Shelby says it has been delayed too long--for 
these final payments and interim payments. So I am basically in 
agreement with you that I have to get these final payments out 
to these people, these fishermen who really need this.
    Senator Vitter. Can you come back to me? I have some more 
questions.
    Senator Landrieu. Yes, I can come back to you. Let me get 
Senator Nelson and then I will come right back to you. Go 
ahead.
    Senator Nelson. Thank you for your service. I just want to 
underscore what that chart says. You see that the number of 
claims, even though the spill was closer to the other three 
States than it was to Florida, nevertheless, there are almost 
800 miles of Gulf Coast coastline in our State and that has 
spawned 162,000 claimants, compared, for example, where the 
spill was right next to Louisiana, 194,000. And it is simply 
that a spill far away is still affecting a State like Florida. 
And our people are frustrated and I want to bring those 
frustrations to you, Mr. Feinberg, respectfully.
    Take, for example, a lady named Susan that was in the 
process of renting vacation homes. That is how she made her 
living. She put in a claim. Obviously, she was impacted because 
vacationers did not come, and her claim was denied. Or take 
Theresa, who was selling advertising in directories and 
vacation guides for tourists. When the tourists did not come 
because they thought there was oil on the beaches--she is a 
disabled woman, that is her only source of income, and her 
claim was denied.
    And so I want to ask five questions, and if I cannot get to 
it, since I did not have an opening statement, I am down to 
three-and-a-quarter minutes----
    Senator Landrieu. Go ahead.
    Senator Nelson. Let me just say, first of all, your 
structuring of the claims process. Are the folks that are 
processing the claims given some sort of worksheet or 
instructions how to determine when all of the required 
documentation is complete, and is that instruction sheet there 
in order to determine how much the compensation should be?
    Mr. Feinberg. Yes----
    Senator Nelson. In other words, I am looking for 
uniformity.
    Mr. Feinberg. Yes. There is an instruction sheet. They have 
been trained. The claims intake people in Florida do not 
calculate the amount, but they make sure with their instruction 
sheet that all the necessary documentation to process the claim 
is there, is available, and is submitted.
    Senator Nelson. OK. As in any big organization, somewhere 
it has broken down with, for example, the two I just mentioned.
    All right. Question number two, we have seen with similar 
documentation different outcomes. So in what ways do you 
oversee that the claims are processed so as to try to get as 
much consistency as possible?
    Mr. Feinberg. In a small number of cases, relatively 
speaking, there is inconsistency. You are absolutely right. It 
is inevitable. There are 500,000 claims, Senator, that we have 
processed in 5 months. I agree with you, there is 
inconsistency. We are trying to deal with it in our facility 
here in Washington. Where we see inconsistency, we flag it. We 
correct it.
    I went down to Alabama and Florida and met with people who 
claimed inconsistency and we fixed some of them, but not 
enough. And I agree with you, we have to do a better job of 
uniformity. I agree completely.
    Senator Nelson. OK. Now, there is a need for an expedited 
review when there are folks that are desperate--electricity 
shut off, foreclosure, cannot afford the basic necessities of 
life. Is there an expedited review?
    Mr. Feinberg. Senator, I think the answer to that is 
categorically yes. We have paid 168,000 people, including in 
Florida 160,000 emergency benefits in 90 days without requiring 
any release or anything. Now, there may be some people, Susan 
or Theresa or others, who for whatever the reason. But when 
those claims have been brought to my attention, we have done 
what we have to do to try and accelerate those claims. I am 
mindful of this criticism.
    Senator Landrieu. Go ahead and take another minute, 
Senator.
    Senator Nelson. People are hurting. When you have your 
electricity shut off, they are hurting.
    All right. Now, you, your organization has said they are 
going to release the formula in February.
    Mr. Feinberg. February 2, Tuesday.
    Senator Nelson. All right. Would it not have been a wise 
thing to do, to be beneficial to the people that are making the 
claim, to know how those claims were going to be evaluated 
before they submitted those claims?
    Mr. Feinberg. Absolutely. On February 2, next Tuesday, we 
are going to release for a 2-week public comment period the 
opportunity for claimants, experts, whoever, to comment before 
we start processing the claims next month, the final payments, 
to review the methodology, review the criteria for people like 
Susan and Theresa, and decide what they think before we process 
that claim, if they like the approach we are going to take.
    Senator Nelson. That is a step in the right direction. And 
then I will just say that you all said that there is an appeal 
process to the Coast Guard?
    Senator Landrieu. Yes.
    Senator Nelson. Where is there not an appeal process to 
your facility?
    Mr. Feinberg. There is. We are implementing a very 
limited----
    Senator Landrieu. Thirty seconds.
    Mr. Feinberg [continuing]. Appeals process, a very limited 
appeals process for high-end claims. There are so many claims, 
Senator Nelson. I do not want to bog down the processing of the 
claims with what could be thousands of appeals. Those 
individuals who are denied or who do not get what they want can 
immediately appeal to the Coast Guard and that is a separate 
appeal opportunity for any claimant.
    Senator Landrieu. OK. We have to move to the second panel, 
but every member will get another 2 minutes on this round, and 
I know, Senator Vitter, you had another question or two.
    Senator Vitter. Thank you very much, Madam Chairman.
    Let me pick up where I left off. My concern is that, in 
terms of the payments that have been made, a lot of which are 
quick payments, that has not hit the seafood and seafood 
processing community significantly. And so the seafood sector 
remains unaddressed compared to other sectors, and that is a 
big and important sector, very hard hit in Louisiana.
    Let me give you some examples. You came to Louisiana for 
some town hall meetings in January. Thank you for that. You 
were presented with a lot of cases that folks that were not 
resolved, were not being adequately dealt with from their point 
of view. Tracy and Mike Roberts from Barataria were at the 
Lafitte town hall and they brought up their claim. Michelle 
Chauncey [phonetic], also from Barataria, she was at the same 
meeting. Rudy Carmandell [phonetic] from Crown Point, he was a 
fisherman. He explained that his paperwork was not straight and 
the Claims Facility said, well, the problem was he needed to 
get something signed off by the boat captain. That really 
frustrated him, because guess what, he is the boat captain.
    In all of those cases, you said, ``I am going to look into 
it. We are going to get back to you.'' My information is that 
in all of those cases, they have not heard anything, nothing 
new, nothing at all from the Claims Facility since that town 
hall meeting. Do you want to respond to that, and how can we 
fix that and address that?
    Mr. Feinberg. I do not believe--if I have not responded to 
individuals who handed me a claim in a visit to Louisiana, 
shame on me. I would like to know, Senator, through your staff, 
the names of those individuals or their claim numbers and I 
will be back to you and your staff forthwith.
    Senator Vitter. OK. We will give you those three. Can I ask 
you, in those three Louisiana town hall meetings, by 
definition, there are obviously a limited number of people who 
could stand up, could you all also report to us who is on that 
list and what has happened to those people since those 
meetings?
    Mr. Feinberg. Yes.
    Senator Vitter. Great.
    Senator Landrieu. Senator Shelby, and then I will get 
Senator Carper.
    Senator Shelby. Thank you, Madam Chairman. I will be brief.
    Mr. Feinberg, I know you have a very difficult task. I 
understand that. As I said, I have known you a long time and I 
know you are working to resolve this. It is not easy. It is 
complex. But I think my people in Alabama, just like Florida, 
Louisiana, Mississippi, Texas, and others, they are interested 
in a fair process, a process that can be expedited, because 
time is everything to them right now, to try to get over the 
winter into the spring and praying and hoping that they can get 
another season.
    You have been to Alabama several times and I appreciate 
that, just like the others. You have been involved and we want 
you to continue to do this. We know you cannot process every 
claim yourself, that you rely on your staff and so forth. And 
you have made a lot of people happy. I am not saying whole. I 
do not know that. But we have a long way to go and that is what 
my people want you to do, is to finish the job, finish it as 
expeditiously as you can, and do the right thing.
    Mr. Feinberg Thank you, Senator.
    Senator Shelby. That is all I ask you.
    Mr. Feinberg. Thank you.
    Senator Landrieu. Senator Carper.
    Senator Carper. Thanks. Welcome, one and all. It is very 
nice to see you. Mr. Feinberg, thank you for taking this on. 
Sometimes I think you almost need the wisdom of Solomon to be 
able to do this fair and square, so we appreciate your efforts 
and those of Mr. Bennett, too, to be fair.
    I understand, and this is really a question both to Mr. 
Bennett and to Mr. Feinberg, but I understand that under 
current law, if a claim is denied or if it is not handled, by 
the responsible party within, I think it is 90 days, then that 
claim can be presented to the Coast Guard for adjudication for 
payment out of the Oil Spill Liability Trust Fund. Is that 
correct?
    Mr. Feinberg. That is correct, Senator.
    Senator Carper. OK. Mr. Feinberg, I think you called this 
sort of a built-in appeals process. I think that is what--is 
that what you call it?
    Mr. Feinberg. There are two appeals processes. There is the 
one that you have just described and then there is an 
additional appeals process that the Gulf Coast Claims Facility 
has created independent of the Coast Guard.
    Senator Carper. OK. Mr. Bennett, I am told that over 500 
claims have been received by your office thus far, but of those 
reviewed, none have been paid. Let me just ask, what do you 
believe the chances are that this will continue? That is my 
first question. What do you believe the chances are that this 
will continue? And secondly, is your office able to handle what 
I understand are an ever-increasing number of claims that are 
being submitted to your office every month?
    Mr. Bennett. Thank you, Senator. That is a good question. 
You are correct. My office has received to date 507 claims that 
have all been presented previously to the Gulf Coast Claims 
Facility and either denied, or in some cases paid before we got 
to it, or the payment did not meet the claimant's satisfaction, 
so they brought it to us. So that is 507 out of the hundreds of 
thousands that are on there. We have finished adjudicating----
    Senator Carper. So in a case where they submit their claim 
to Mr. Feinberg's folks for like, say, $200, they got $100, but 
they are not satisfied. So they come to you for the second 
$100? Is that right?
    Mr. Bennett. That is correct, Senator. They can bring it to 
us. It is not really an appeal of his decision because it is 
sort of an arm's length relationship between the two of us. But 
we are an alternate source for adjudicating. So as long as it 
has been properly presented to the responsible party, in this 
case the Gulf Coast Claims Facility, if after 90 days or 
denial, then they can bring it to us and we will take a re-look 
at it. We have an arm's length relationship, so we try to 
understand what it was that they did. We want to make sure they 
have not already paid it, which we found in about 10 percent of 
the cases the claimant has been paid, so we end up sending a 
denial. And then we adjudicate it in our own process and get 
back to the claimants.
    We have adjudicated 200 and all of those have been denials 
to date. I cannot predict that it will continue to go at that 
rate. I think that is primarily an indication of the fact that 
the protocols that are out there that BP and GCCF have been 
able to do have actually been more inclusive than OPA requires. 
They can pay for personal injury. They can pay emergency 
advance payments. I cannot pay advance payments. Their final 
claims protocol will include prospective losses. I cannot pay 
for speculative losses. So there are a lot of reasons why when 
they----
    Senator Carper. Let me just ask you this. Stop right there. 
I want to go back to my second question. Is your office able to 
handle what I understand to be an increasing claims load 
demand? Are you able to handle it?
    Mr. Bennett. Senator, that has been a concern of mine for 
the last 7 months, is what happens if we get a deluge, and so 
far, we have not seen that deluge. So far, we have been able to 
scale up. I have stood up a separate staff just for Deepwater 
Horizon claims and we have been able to keep up with the calls 
and the claims that have come in. I cannot--it depends on what 
happens in the future. We will continue to scale as we need to, 
using the resources that we have. But for right now, we have 
been able to stay up.
    Mr. Feinber Senator, I just want to say one thing about 
this. Mr. Bennett has made two--from my perspective, he has 
made my day. First, the Coast Guard has acknowledged in this 
testimony that the GCCF is more generous and more open in 
finding eligibility than OPA requires. I have said that from 
day one. And second, the Coast Guard has publicly stated today 
at this hearing that it has received 507 appeals from the GCCF, 
and about half of those, we have adjudicated and affirmed the 
decision without exception of the GCCF.
    Senator Carper. Good. Thank you. Last question, if I may. 
Mr. Feinberg, how are you ensuring that you do not deny a claim 
the government might pay or that no claims fall through the 
cracks? If the Coast Guard did pay a claim that you missed, 
would we be able to be reimbursed for those funds?
    Mr. Feinberg. I do not understand the question.
    Senator Carper. I will say it again.
    Mr. Bennett. Can I answer that?
    Senator Carper. Please.
    Mr. Bennett. Senator, if I pay a claim that he denied, the 
responsible party is liable for that expense because it comes 
out of the trust fund. So I would then bill BP for any and all 
claims that we pay and we would be reimbursed by BP.
    Senator Landrieu. And they would probably bill him. He has 
the $20 billion.
    Mr. Bennett. They would work that out between themselves. 
Yes, ma'am, that would probably come out of the escrow account.
    Senator Carper. All right. OK. Thanks, Madam Chairman.
    Senator Landrieu. Senator Carper, good question. Senator 
Nelson.
    Senator Nelson. Thank you, Madam Chairman, and I want to 
thank you for doing this. I want to thank you, Mr. Feinberg, 
for coming several times to the Gulf Coast.
    Now, I want to go back to your last question. You do not 
want the appeals process to bog down your process of paying 
claims, but we would have to worry about that over in the Coast 
Guard, as well, and we would have to worry about the courts 
getting clogged. And so if you will go back and reevaluate 
that, because at the end of the day, what we are trying to do 
is help people. And so there is some breakdown there. Now, 
there is some breakdown also--for example, I have seen our 
staff in my Florida offices work miracles.
    Mr. Feinberg. That is right.
    Senator Nelson. People have come to us. They have a claim 
that is bogged down. We get in touch with your facility and 
they work it out. But more recently, maybe it is the holidays, 
the middle of December, I sent to the Facility 40 cases, and it 
is well over a month and 10 days later. And so I followed up 
with another letter just recently. If you would attend to that, 
I sure would appreciate it.
    Mr. Feinberg. I think I have an answer for that. You are 
right. I will attend to that. I think the reason those 40 
claims are sitting, waiting to be processed, is because of the 
delay that I imposed in the methodology for finalizing 
payments, final payments in Florida. And as I said, Senator, we 
are accelerating that. We are going to announce that 
methodology next Tuesday, and a 2-week public comment period, 
and then we will be paying all 40 of those claims, and I will 
keep your staff posted on that.
    Senator Nelson. Thank you, Madam Chairman.
    Senator Landrieu. We are going to wrap this panel, but I 
want to put a couple of things in the record.
    One, 194,000 claimants have filed claims to date in 
Louisiana. Forty-four percent have been paid. One-hundred-
sixty-two thousand in Florida. Sixty percent have been paid. 
Sixty-eight thousand in Alabama. Sixty percent have been paid. 
Fifty-two thousand in Mississippi. Forty-two percent have been 
paid. Texas, 10,000. Thirty percent have been paid. Now, these 
are quick payments, emergency payments, interim payments. I am 
not sure that we have even yet to see the final settlements, 
and we do not have those complete numbers. But it just gives us 
a rough snapshot.
    But Senator Vitter is absolutely correct that these 
percentages, while they do tell a part of the story, it is the 
easier claims, the smaller claims being paid, and some of the 
businesses that were most affected, particularly in the 
fisheries and fishing and seafood sector that were the hardest 
hit have yet to be paid. So I think, Mr. Feinberg and also Mr. 
Bennett, we should keep our mind on that.
    Second, we did go find a claims letter, and I want to read 
it for the record because, to me, this is insufficient. I am 
not going to read the whole letter, but the operative is, you 
are denied. Your claim has been denied. You did not provide 
sufficient documentation. In this form letter, there is no 
comment about what documentation you failed to provide. It does 
not say, you did not provide your birth certificate, or you 
failed to provide a copy of your fishing license, or you failed 
to provide the address of your business. No specifics about 
documentation. And then it says, and if you have questions 
about your denial, you can call this toll-free number.
    So what I am going to do before the next hearing, because I 
am going to call another one, is I personally, with my staff, 
am going to get 20 people that have these denial letters, four 
from each State. That would be 20, is that correct? Four times 
five? We are going to do 20, four from each State. And I am 
going to call this number, Mr. Feinberg, and I am going to hope 
to get on the other end someone that is going to pull up their 
account and say, Ms. Jones or Mr. Jones, your claim was denied 
because, your address was bogus, or because you said you were 
in the restaurant business, but you are actually in the dry 
cleaning business and we found out about it and we are not 
paying you, or something.
    And then, Mr. Feinberg, I will tell you, the next hearing I 
have, I am going to have your Chief Operating Officers (COOs) 
in front of this panel, because you have a good big picture and 
I think you have a really good handle on the philosophy and 
strategic elements of this, but I am convinced, getting more 
and more convinced, unfortunately, that there is something lost 
between your vision and actually what is happening on the 
ground. And we just--this is getting to be now fairly desperate 
for some of our businesses and some of our people.
    So let us end this panel on a positive note, but I am going 
to do another review here in several weeks and give everybody 
time to recoup. I want to go to the second panel.
    And I am also going to submit two other things for the 
record. Our State submitted industry-specific compensation 
models for your review, Mr. Feinberg, and they have not 
received a response, and that is an official submittal from a 
very high office, maybe not from the Governor himself, but from 
someone at a very high office. And from the State of Florida, 
your Chief Financial Officer, Jeff Atwater, sent a letter from 
Florida to you.\1\ They have not been given a response. So we 
do need--I know you postponed some things, but this February 2 
announcement, of course, is an important one. Florida and 
Louisiana have submitted some specifics to you. So let us 
please get on that, and we will see you all back here in about 
4 weeks, OK?
---------------------------------------------------------------------------
    \1\ Item referenced by Senator Landrieu appears in the appendix on 
page 94.
---------------------------------------------------------------------------
    Mr. Feinberg. Thank you, Senator.
    Senator Landrieu. All right. Thank you.
    And if the second panel will come forward, I am going to 
ask Admiral Broderick to go first. I know he has a tight flight 
schedule and I am sorry this has been delayed slightly. I 
really appreciate you all making the effort to be here given 
the weather conditions outside.
    Admiral Broderick is from the Substance Abuse and Mental 
Health Services Administration (SAMHSA), where he serves as 
Deputy Administrator. He has served for 34 years with the 
Department. He is a Commissioned Officer in the U.S. Public 
Health Service. He has extensive experience as a Clinician and 
he is here to testify about the oil spill's impacts on the 
mental health of some of these communities and the stress that 
has been placed on individuals, families, and businesses 
throughout the Gulf.
    So, Admiral, why don't we start with you and then I will 
introduce the other panelists in a moment.

TESTIMONY OF REAR ADMIRAL ERIC B. BRODERICK,\1\ D.D.S., M.P.H., 
    DEPUTY ADMINISTRATOR, SUBSTANCE ABUSE AND MENTAL HEALTH 
 SERVICES ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Admiral Broderick. Thank you, Madam Chairman. Thank you for 
indulging my schedule. If you do have questions of me, if the 
Subcommittee has questions of me, I would be happy to answer 
them for the record afterwards.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Broderick appears in the appendix 
on page 53.
---------------------------------------------------------------------------
    I am pleased to have this time to share with you a few 
highlights of SAMHSA's efforts in the Deepwater Horizon oil 
spill recovery and response. I am joining you today on behalf 
of SAMHSA's Administrator, Pamela Hyde, who was unable to 
attend the hearing, yet she has been very involved with 
SAMHSA's role in the oil spill response.
    As part of SAMHSA's mission to reduce the impact of 
substance abuse and mental illness on American communities, 
behavioral health is an essential part of health. We know that 
prevention works, that treatment is effective, and that people 
recover from mental health and substance use disorders. 
Traumatic events, such as the Deepwater Horizon oil spill, 
placed a heavy burden on individuals, families, and communities 
and create challenges for public institutions and service 
systems, especially the behavioral health system.
    SAMHSA and the behavioral health community know that 
disasters often precipitate mental and substance use disorders, 
which can be triggered when hope seems gone, security is 
threatened, and lives and property are lost. Addressing these 
behavioral health needs is critical to the recovery for 
individuals, families, and communities affected by the 
Deepwater Horizon oil spill and efforts will be necessary for 
years to come. With appropriate support and intervention, 
people can overcome adversity and move forward.
    As part of the coordinated Department of Health and Human 
Services (HHS) response, we at SAMHSA worked to help ensure 
that the immediate behavioral health needs of affected 
individuals were addressed in the immediate aftermath of the 
oil spill and we will continue to address these evolving needs 
over time.
    State reports show increased behavioral health needs in the 
Gulf region in the wake of the oil spill. These reports 
document an increase in incidents of psychiatric disorders, 
anxiety and depression, increase in the incidence of substance 
use, and higher risks of suicide. The rate of family breakdown, 
including domestic violence, are also on the rise. These 
outcomes, while troubling, were not unexpected. These increased 
behavioral health needs are similar to those observed after 
Hurricane Katrina as well as after the Exxon Valdez oil spill 
in 1989.
    The current situation in the Gulf is exacerbated by the 
fact that it occurs in the same region impacted by Hurricanes 
Rita and Katrina in 2005. We know that when multiple events 
happen over the course of time, individuals in those regions 
are at heightened risk for behavioral health disorders.
    SAMHSA has been engaged in supporting the impacted States 
since the day after the oil spill. We have provided technical 
support and assistance to the States to assess and meet the 
mental health and related substance abuse needs concerning the 
affected communities. SAMHSA has been in contact with State 
officials assessing needs and helping States formulate response 
plans, including the development of a shared template to gather 
information and address the emergent needs and provide 
technical assistance to States in their request for funds from 
BP for behavioral health services.
    In addition, SAMHSA immediately began making relevant and 
useful information available on our website. There are 
comprehensive resources and information available on behavioral 
health and the Deepwater Horizon oil spill. An online annotated 
bibliography continues to provide an extensive list of sources 
of information. SAMHSA's website also provides links to dozens 
of other Federal agencies and organizations involved in the 
response.
    At the request of Secretary Sebelius at HHS, Administrator 
Hyde at SAMHSA, and multiple Gulf States, BP provided $52 
million to fund mental health and substance abuse support 
services. Funds went to SAMHSA and to four States affected most 
in the region, Louisiana, Mississippi, Alabama, and Florida. Of 
this $52 million, SAMHSA received $10 million to launch a toll-
free crisis counseling hotline for residents of the affected 
States, to develop behavioral health educational materials for 
public health information, and to conduct surveillance of 
ongoing behavioral health needs for individuals affected by the 
spill.
    SAMHSA created and successfully launched the Oil Spill 
Distress Helpline, 1-800-985-5990. This toll-free helpline 
provides information, support, and counseling for those 
affected by the Deepwater Horizon disaster. SAMHSA has also 
undertaken extensive regional public education campaigns to 
raise awareness of the potential behavioral health impacts of 
the spill and to connect those in need with available services. 
SAMHSA has assisted in the coordination of local and regional 
outreach activities to promote awareness of the hotline number. 
We have also disseminated public education and outreach 
materials on behavioral health among the residents of the 
affected communities. We have also developed and distributed 
television, radio, and print announcements to the public.
    In addition, the $10 million that BP provided to us also 
provided funds that we have used in coordination with our 
Federal partners to do surveillance of the mental health and 
substance abuse needs of the community. This includes 
collaboration with the Centers for Disease Control (CDC), who 
is in the process now of conducting a telephone survey in the 
Gulf. That survey began on the 15th of December and will 
continue for a year.
    We also recently announced the provision of about $650,000 
in grants to the four States. They amount to about $162,000 per 
State to provide States funds to monitor the mental health and 
substance abuse services being provided to the people that they 
encounter in those communities. SAMHSA's efforts represent only 
a part of the Federal Government's comprehensive response to 
the Deepwater spill.
    Despite many hardships, people of the Gulf are doing their 
best to stay connected with friends of family, take care of 
themselves and their neighbors. I have to tell you, Senator, 
the resilience of the folks in your jurisdictions are truly 
phenomenal. They are very, very resilient people given what 
they have encountered over the last decade. It is truly amazing 
to us to see that.
    History tells us, however, that the emotional impact of the 
devastation is going to continue and we need to be very 
vigilant of that and monitor carefully how those communities 
are doing. As such, the Oil Spill Distress Line will be 
operational through 2011. Public Service Announcements (PSAs) 
and information on our websites will continue to be updated and 
disseminated. Surveillance will continue. And coordination with 
State and voluntary providers will persist until such time as 
the indicators signal that they are no longer needed.
    Senator Landrieu. Would you wrap up, if you would, please.
    Admiral Broderick. Sure. Now that the immediate response 
phase has come to an end, we are shifting our focus to the 
long-term recovery efforts for the Gulf Coast residents and to 
help them rebuild their lives.
    It has been my pleasure to be here, Madam Chairman, and I 
would be happy to, as I said, answer any questions for the 
record that you might have.
    Senator Landrieu. Thank you, Admiral.
    I do have one question, then we will excuse you because I 
know of your flight, and then we will go to the rest of the 
panel.
    Admiral Broderick. OK.
    Senator Landrieu. Under the total amount of $52 million 
that BP contributed, and they did this voluntarily----
    Admiral Broderick. Correct.
    Senator Landrieu [continuing]. Because I want to say for 
the record, there is no law requiring them to contribute in any 
way to social services, mental health. It was not contemplated 
in the Oil Pollution Act. It is being, of course, thought about 
now since the repercussions are so clear and widespread.
    But SAMHSA was provided $10 million by BP. Did you have any 
money on hand as an agency prior to the $10 million given to 
you by this BP contribution to respond as an agency?
    Admiral Broderick. We have authority, Madam Chairman, to do 
SAMHSA Emergency Response Grants, and this was a bit different 
in that there was no Stafford Act declaration.
    Senator Landrieu. Right.
    Admiral Broderick. So FEMA funds were not available. And in 
those instances when----
    Senator Landrieu. So what was available?
    Admiral Broderick. What was available is SAMHSA's general 
appropriation. And so while we have the authority to provide 
funds to communities in response to disasters. We do not have a 
specific budget line item for that, so we would shift funds 
around in those instances----
    Senator Landrieu. And how much did you shift around to 
accommodate this situation?
    Admiral Broderick. We did not. The $650,000 that we 
provided to the four States came out of the $10 million that BP 
provided us.
    Senator Landrieu. And what did you do with the other----
    Admiral Broderick. The rest of the $10 million?
    Senator Landrieu. The rest of the $10 million.
    Admiral Broderick. Six million goes to surveillance. A 
hundred-and----
    Senator Landrieu. Surveillance? What does that mean?
    Admiral Broderick. Epidemiologic surveillance, monitoring 
the substance abuse and mental health conditions of Gulf Coast 
residents----
    Senator Landrieu. So just reporting it, but not treating 
it?
    Admiral Broderick. Correct. It goes to monitoring----
    Senator Landrieu. Identifying it, reporting it, but not 
treating it.
    Admiral Broderick. Right. Epidemiologic----
    Senator Landrieu. So of the $10 million that went to you, 
only $650,000 went for----
    Admiral Broderick. Correct. The responsibility for 
treatment is the responsibility of the States. In these kinds 
of situations, our mission is to coordinate a response and to 
do things that cut across the entire region. The $42 million of 
the $52 million that was provided was provided to those States, 
and those States then were the ones that provided treatment to 
people.
    Senator Landrieu. OK. And was that agreed to between SAMHSA 
and the States, that you all would do all of the identification 
and reporting so that they could use 100 percent of their money 
for treatment? Do you know if that was ever----
    Admiral Broderick. Actually, the Administrator convened all 
five States in Atlanta in June, and I mentioned the development 
of a common template. Essentially what that was a common format 
for a claim, if you will, by each of the States to BP. And so 
we submitted our claim for the things that States would not do, 
the things that cut across the whole region. For instance, that 
telephone number is available to anybody in the region. The 
surveillance occurs across the entire region. The Public 
Service Announcements occur across the entire region. And the 
States then submitted their requests, which totaled $42 
million, that BP then paid to the States specifically for 
treatment. We did agree that we would--our request would cover 
the things that cut across the region and the States would 
request funds for treatment.
    Senator Landrieu. Because I am going to be asking each 
State to give this Subcommittee a very detailed report of how 
they spent, in Louisiana, 15, in Mississippi, 12, Alabama, 12, 
and Florida, approximately 2.4, and we are going to ask you for 
detail on your $10 million, and then $1 million went to 
Catholic Charities.
    I know that you have to leave, so let me go ahead and 
excuse you now and thank you for your testimony.
    Admiral Broderick. Thank you.
    Senator Landrieu. Mr. Keller, if we can first go to you, I 
guess, and then we will come back to Mr. Costanza and Ms. West.
    Thank you again, Admiral. I appreciate it.
    Mr. Keller, go ahead and outline what BP felt under its--
you do not have a legal obligation, but you all have made a 
fairly significant commitment here. There are still some great 
needs and we will discuss that as you go on, but go ahead and 
proceed. You have 5 minutes.

  TESTIMONY OF ALBERT L. KELLER,\1\ EXECUTIVE VICE PRESIDENT, 
     GULF COAST RESTORATION ORGANIZATION, BP AMERICA, INC.

    Mr. Keller. Thank you, Chairman Landrieu. I am Luke Keller, 
Executive Vice President for BP America's Gulf Coast 
Restoration Organization (GCRO). I welcome your invitation to 
share information with you about the process for addressing 
State and local government claims relating to the Deepwater 
Horizon accident and BP's contributions to various social 
services providers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Keller appears in the appendix on 
page 59.
---------------------------------------------------------------------------
    The Deepwater Horizon accident has profoundly affected all 
of us. We have deep sorrow for the lives lost, the injuries 
sustained, and the impacts to the Gulf Coast communities.
    The GCRO was formed in the summer of 2010 and manages all 
aspects of the response to the Deepwater Horizon accident in 
the Gulf of Mexico. We have offices and dedicated local teams 
in Louisiana, Mississippi, Alabama, Florida, and Texas. We 
essentially oversee four functions: Spill response and removal, 
economic restoration, environmental restoration, and restoring 
trust.
    Within days of the incident, we established a robust claims 
process to address claims by individuals, businesses, and 
government entities. Our central focus has been and remains the 
fair and proper resolution of all legitimate claims. In the 
GCRO, we work closely with State and local governments to 
ensure we meet our commitments to the people of the Gulf Coast.
    And at the request of State Government leaders, BP has 
provided advances to cover anticipated response and removal 
costs even before they were incurred, approximately $291 
million to Louisiana, $75 million to Mississippi, $56 million 
to Alabama, and $50 million to Florida. Advances were also made 
to governments for alleged losses of tax revenue.
    BP has a Government Claims Group within the GCRO that is 
dedicated full-time to addressing claims filed by government 
entities. We provide regular public reporting on our government 
claims process and also send periodic newsletters to government 
claimants.
    Senator Landrieu. Mr. Keller, let me just interrupt you 
just a minute, and you may want to regroup. We had asked you 
specifically to come and talk about the mental health, 
community outreach piece. So you can submit the rest in 
writing, but we were very, very clear about the subject of this 
hearing. So why do you not think about what you might want to 
say about that and I am going to go to Mr. Costanza and Ms. 
West now and then we will come back to you and you can add some 
thoughts to what BP is observing in the area about community 
stress or strain, how the process is impacting people, not so 
much--I mean, everybody is fairly aware of what you all have 
set up and we are grateful for what you all have done so far, 
but we want to really stay focused on the human aspect of this.
    Mr. Costanza, let me introduce you so people know who you 
are. I do, but Tom is the Executive Director of the Office of 
Justice and Peace for Catholic Charities. He is also the Chair 
of the Greater New Orleans Disaster Recovery Partnership that 
has been working, unfortunately, too hard and overtime since 
Hurricanes Katrina, Rita, Gustav, Ike, and now the BP spill. I 
just want to compliment you and Catholic Charities for taking a 
leadership role through all of these storms and disasters with 
so many different religious organizations and community-based 
organizations to try to help our people through some difficult 
times.
    So we will start with you, and let me also introduce Ms. 
West, and then we will go right to you. She serves as Chair of 
the South Mississippi Voluntary Organizations Active in 
Disasters. You all have been working very closely together. 
International Relief and Development (IRD) and the U.S. Gulf 
Coast Community Resource Center have assisted over 10,000 
clients with hurricane recovery and long-term needs since 2005.
    So, Mr. Costanza, let us start with you.

  TESTIMONY OF TOM COSTANZA,\1\ EXECUTIVE DIRECTOR, OFFICE OF 
   JUSTICE AND PEACE, CATHOLIC CHARITIES, ARCHDIOCESE OF NEW 
                            ORLEANS

    Mr. Costanza. Good afternoon, Chairman Landrieu, and thank 
you for your leadership in all these disasters. We do try to 
work together as NGOs in partnership and we feel that is the 
best way to help people effectively recover.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Costanza appears in the appendix 
on page 63.
---------------------------------------------------------------------------
    My name is Tom Costanza with Catholic Charities in the 
Archdiocese of New Orleans (CCANO) and I would like to begin by 
remembering the families that lost loved ones and for the 
families impacted by this current disaster.
    The anxiety level is high and getting higher in our 
communities across Southeast Louisiana, and much of this is 
due, unfortunately, to the claims process and structure. 
Although the process has paid claims, there is much confusion 
about its inconsistent methodology, fairness, lack of access to 
information, lack of local decisionmaking, and lack of 
concrete, useful information as to why claims were denied and 
what they can do to correct it.
    A real issue right now is a total of 4,230 fishing sector 
claims have been denied for insufficient documentation at the 
end of the emergency phase. Some are losing homes and vehicles. 
There is increased stress and anxiety because of frustration 
with the claims process and reduced incomes. Many are having 
difficulty finding other employment. Oystermen are concerned 
about the long-term loss of the oyster beds, and shrimpers are 
concerned over price and production levels.
    However, the nonprofit sector is responding. Along with 
many other NGOs, five local Catholic Charities and Second 
Harvest Food Bank agencies along the Gulf Coast have provided 
food, relief, and recovery services to people impacted by the 
disaster.
    A simple story is recently one of our case managers helped 
a fisherman with food, room, assistance, and counseling until 
he can find some temporary work because he cannot fish anymore. 
This shows you a human side of this recovery where a case 
manager is critical and important to develop that relationship 
and recovery.
    We are very grateful to BP for the initial direct 
assistance and mental health funds which we are using, but 
without the proven holistic approach to family recovery, 
including case management, direct assistance, financial 
counseling, the recovery simply is less effective.
    Responding Catholic Charities agencies report a collective 
total of nearly $2.7 million in resources we have raised and 
delivered to the oil spill-impacted population. We are asking 
both the Gulf Coast Claims Facility and the Gulf Coast 
Restoration Organization staff to sit down with the nonprofit 
and faith-based organizations and work together in service to 
the common good of the residents in our coastal communities.
    In addition, we recommend the following. We need to 
absolutely fast track and resolve the 4,200 fishing industry 
claims that were denied. This is critical. These are the 
vulnerable families. These are the families that need immediate 
assistance and cannot wait until the interim claim process is 
ironed out. We need to restructure the claims process for the 
fishing community using knowledge and protocols developed by 
industry experts with special cultural sensitivity to the 
highly impacted Asian Pacific population. And we must fund the 
NGO Technical Assistance Providers Network proposal to increase 
the claims quality and approval rates.
    In order to stabilize our families during this critical 
period, we would like to get the Family Stabilization Grant 
funded, because this would directly help people with rent, 
utilities, counseling, job development, so they can make it 
through this tough time.
    We need to be aware of health care and monitoring of toxic 
exposure, especially for children and the oil spill cleanup 
workers, and provide primary health care access and services in 
these coastal communities.
    We should pay subsistence claims, fund food banks, and 
streamline the Food Stamp application to the two-page Disaster 
Food Stamp Form to alleviate food insecurity.
    And in terms of long term, we have brought that up, should 
dedicate some of the fines from the Clean Water Act to human 
recovery, to look at the tax policy relative to spreading their 
final claims over a period of years, and as you mentioned 
before, to revise the Oil Spill Pollution Act to include human 
recovery.
    We welcome the opportunity to continue to work together 
with BP and the Gulf Coast Restoration Organization. We have 
worked successfully with the Feinberg team in D.C. on some 
special critical cases and we look forward to building on that 
relationship.
    I would like to end with a quote from Archbishop Aymond. 
``Many of these same families have rebuilt their lives after 
Hurricane Katrina and are a sign of hope for us all. They are a 
vibrant people.'' Thank you.
    Senator Landrieu. Thank you, Tom. Ms. West.

   TESTIMONY OF LORI R. WEST,\1\ CHAIRMAN, SOUTH MISSISSIPPI 
          VOLUNTARY ORGANIZATIONS ACTIVE IN DISASTERS

    Ms. West. Madam Chairman, I am honored to be here today to 
provide you testimony to this prestigious Subcommittee on 
behalf of South Mississippi VOAD, Voluntary Organizations 
Active in Disasters (SMVOAD), and International Relief and 
Development.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. West appears in the appendix on 
page 81.
---------------------------------------------------------------------------
    Since 2005, the members of SMVOAD have been working 
together to address the effects of Hurricane Katrina, the 
Nation's largest natural disaster. Members of SMVOAD include 
the American Red Cross, Catholic Charities, Hope CDA, 
Interfaith Disaster Task Force, International Relief and 
Development, Lutheran-Episcopal Services of Mississippi, 
Salvation Army, STEPS Coalition, the United Way of South 
Mississippi, and I have attached a complete list to this 
testimony.
    Since June 2010 and continuing through January 2011, SMVOAD 
and IRD have held frequent meetings with British Petroleum to 
try and address the effects of the Deepwater Horizon oil spill 
on the residents of the Gulf Coast. We have submitted multiple 
humanitarian proposals to BP and have revised the proposals in 
response to BP's feedback. The time and effort expended by 
SMVOAD members on this issue has been significant because we 
believe the problems faced by the people of Mississippi and 
those along the Gulf Coast are considerable.
    I would like to draw your attention to an August 2010 study 
by the National Center for Disaster Preparedness (NCDP) at 
Columbia University's Mailman School of Public Health. I 
believe this study is important because it has identified some 
of the key findings which clearly show the impact the spill has 
had on our local populations. More specifically, the study 
states the following.
    More than 40 percent of the population living within 10 
miles of the coast have experienced some direct exposure to the 
spill. One in five households has seen their income decrease as 
a result of the spill, and 8 percent have lost jobs. More than 
one-quarter of the coastal residents think they may have to 
move from the area because of the spill. The oil spill had the 
greatest impact on those with the fewest economic resources, 
much like Hurricane Katrina. Coastal residents earning less 
than $25,000 a year were more likely to report having an income 
loss than those earning more.
    In the summer of 2010, the United Way of South Mississippi 
and the United Way of Jackson and George Counties, the Gulf 
Coast Business Council, and the Mississippi Center for 
Nonprofits conducted a survey of health, education, employment, 
finances, arts, and tourism to measure the impact of the oil 
spill on the residents. The survey found that the top six 
issues facing residents were stress, loss of job or income, 
increased need for food assistance, problems meeting car, rent, 
or mortgage payments, problems purchasing prescription drugs, 
and loss of health insurance or other benefits.
    Also, nearly 70 percent of the nonprofit organizations that 
reported a decrease in fundraising since May 1, 2010, indicated 
that the oil spill was a significant or moderate reason for 
that decrease. More than 80 percent of all the nonprofits 
surveyed expected a decrease in fundraising for the next 90 
days.
    Despite these negative impacts on our community and the 
heroic efforts put forth by SMVOAD and other nonprofit 
agencies, BP has not yet provided the funding necessary to 
address the multiple social service needs of the Gulf Coast 
residents. I have been asked by our members to provide a copy 
of our major VOAD proposals, including proposals to address the 
various aspects of the spill's impact on our community, 
including housing, finances, job and vocational training, and 
livelihood means. Our members believe that ongoing 
conversations with BP have provided some feedback regarding the 
proposals, but BP has stated that any funding of these types of 
urgent programs will indicate culpability or indirect or 
tertiary effects of the oil spill, and thus, they seem to have 
made a decision not to fund these critical programs.
    There was some hope among SMVOAD members when BP agreed to 
award $52 million for mental health services to the Gulf Coast 
residents in 2010. SMVOAD worked with several agencies to 
present BP with a comprehensive program to address both mental 
health and basic social service needs for at least 1,300 
residents affected by the spill. It remains unclear to our 
members why the bulk of the proposal was not funded, and no 
funds were allocated for victims with urgent social service or 
real day-to-day needs, such as food, rent, transportation, and 
other critical financial needs. Based on our members' 
experience serving tens of thousands of Hurricane Katrina 
victims, SMVOAD and IRD member organizations can say with 
confidence that offering mental health and case management 
services without also providing critical housing and vocational 
needs is largely ineffective.
    We would like the Subcommittee Members to note that many 
organizations have expended their own resources to assess and 
address the impact of the spill on low- to moderate-income 
families. Between May and September 2010, my organization, IRD, 
enrolled 976 clients into its case management and direct 
services program, compared to 266 clients the previous year. 
Requests for rental assistance also increased, from 236 during 
the first 4 months of 2010 to 678 in the 5 months between May 
and September 2010. And in addition, IRD's YouthBuild program, 
a program that provides job training and GED preparation to at-
risk youth in the Gulf area, saw its applicant pool rise from 
142 in 2009 to 314 in 2010, immediately after the spill.
    IRD and members of SMVOAD are addressing the needs of those 
affected by the spill through a range of direct referral 
services.
    Senator Landrieu. Wrap up, if you can.
    Ms. West. OK. In closing, I know the Subcommittee 
recognizes that many nonprofit organizations in the Gulf Coast 
region need additional resources to deliver effective services 
that will help the residents who have been affected by the oil 
spill recover, both in the short- and long-term. But today, I 
am also representing South Mississippi VOAD to ask for more 
direct support and engagement on this critical issue with BP 
and its various representatives. Thank you.
    Senator Landrieu. Thank you.
    Let me begin with you, Mr. Costanza and Ms. West, to just 
try to get a handle on the money that has been allocated and 
how it has been spent. Of the $15 million that went to 
Louisiana and the $12 million that went to Mississippi, did any 
of that portion go to the networks that each of you represent, 
and if so, how much?
    Mr. Costanza. Of the $15 million, $6.7 went to Catholic 
Charities and other organizations that are developing the model 
implementing the comprehensive--it is a comprehensive outreach, 
treatment, and community resiliency model.
    Senator Landrieu. And so do we know where the other non----
    Mr. Costanza. The State had the remainder.
    Senator Landrieu. OK.
    Mr. Costanza. The State had the remainder.
    Senator Landrieu. So about $6 million went to the network 
of organizations, and then we will find out about the 
remainder.
    And how about with you, Ms. West----
    Ms. West. It was a similar percentage. The majority went to 
the State and then a smaller percentage went to local 
organizations, mental health specific.
    Senator Landrieu. OK. Mr. Keller, several of the witnesses 
directly said or indicated that, potentially, BP feels that if 
you compensate along these lines, that you think that puts you 
in either a disadvantage in a case that you would be 
responsible for all of these mental health issues or social 
service challenges. Is that true, and did that come into your 
thinking, and if so, why, and if not, what has prevented you 
from maybe stepping up and helping a little more?
    Mr. Keller. Senator, I am unaware of any statement like 
that has been made, and in fact, we have encouraged our staff 
on the ground to bring any proposals or requests that come to 
us forward so we can take a look at those and evaluate them on 
their merits.
    Senator Landrieu. OK, because I am aware and have been for 
months, and it is part of why we wanted you all to come, I 
think the Catholic Charities has asked BP several times. There 
are 53 Louisiana NGOs that have come together to talk about a 
second tranche, if you will, for some direct services, because 
as you can tell from the testimony in the previous panel, we 
are going to be at this for another 6 months, a year, or a year 
and a half--I hope not much longer than that--until all of 
these claims are paid and settled, but who knows. As I said, 40 
percent, 60 percent of claims have been paid, but those have 
been the low-hanging fruit, the easier claims. Some of these 
are more difficult claims, so who knows how long this is going 
to go on and the need is immediate.
    So there have been, I understand, several proposals from 
Louisiana, Mississippi, and potentially other States. Will you 
consider them? Is there something that we should know in your 
corporate governance that prevents you from at least 
considering their request, and if not, will you consider them?
    Mr. Keller. We will consider those, and I do not believe 
there is anything that prevents us from doing that.
    Senator Landrieu. OK. Now, I know there is nothing that 
requires you to do it. I am clear about the law, and I want the 
petitioners here to understand that BP is under no legal 
obligation.
    Now, in addition, BP was not under any legal obligation to 
set up any fund of relief for rig workers put out of work 
because of the moratorium. You are not responsible, in my view 
and many people's view, for people put out of work by the 
moratorium. The government is. But yet, BP stepped up and you 
made a special arrangement and we are very grateful, to help 
with some of those rig workers.
    And I am thinking that perhaps, because this need is as 
immediate and as clear as that, in this case, this is directly 
related to the spill, these families, not necessarily related 
to any indirect, like the slow down or shutdown of some of the 
work related to oil and gas in the Gulf, but more so fisheries 
and people who really saw their livelihoods curtailed. So if 
you could look at that, it would be very, very helpful. I know 
that $52 million sounds like a lot of money, but as these 
numbers are going, it is $20 billion-plus for claims. It does 
not seem like a lot of money when you think about it relative 
to all the other money that is being spent, and it is such an 
important need.
    Let me, Tom, just ask you to just hit again how you all are 
working together, because I know you are fairly organized in 
Louisiana and Mississippi, but what about Alabama? What about 
Florida? Do you all have any communications with the social 
groups on the ground there?
    Mr. Costanza. I am aware of Catholic Charities' disaster 
response is for the Catholic Charities USA (CCUSA) having 
conference calls with Mobile in Alabama, but we could do a 
better job of coordinating a Gulf region response.
    Senator Landrieu. Ms. West.
    Ms. West. We have called together the regional VOADs and 
New Orleans VOAD has joined in a meeting, Louisiana VOAD has 
come together with South Mississippi VOAD, Mobile VOAD, Baldwin 
County VOAD, and Alabama VOAD, and we have all come together 
and have experienced similar situations requesting for this 
direct assistance and not prevailing.
    Senator Landrieu. Well, it is clear to me, and we are going 
to have to wrap up in a minute, that the law is deficient and 
can be and hopefully will be corrected so that the next time 
there is an environmental spill of a significant magnitude 
where there are impacts, not just environmental, not just 
economic, but community impacts or human service impacts, that 
the polluter, the violator in this case be held accountable.
    But in the meantime, I think BP would show a great deal of 
faith to the community, and as has been stated in many of your 
hundreds of advertisements, that you are going to really meet 
your obligations to really consider these proposals. I know 
that officials from the State of Louisiana have written to Bob 
Dudley, and that letter was sent on November 18. I am assuming 
some of the other leaders of the other States have also weighed 
in. And, of course, I met with Lamar McKay; who I do not see 
him here, but he was with me to discuss this some weeks ago and 
I gave him a copy of the State's letter and Catholic Charities 
proposal. So again, you are under no obligation, but it clearly 
is a need in the aftermath of a disaster to try to provide some 
direct assistance for social services.
    But I will say this, because BP has stepped up in many 
ways. I am dismayed the Federal Government itself did not have 
any monies readily available to respond through our own 
agencies, and I am going to be asking the States in the Gulf 
Coast what emergency funds they have established in advance so 
we are not having to scramble for funds just to respond to 
people's immediate needs every time there is a major natural 
disaster, or in this case a manmade pollution event. And 
sometimes, we get there too late and it is tragic.
    Do you all want to end--Mr. Keller, I would like maybe one 
more minute from you each as we end. We will start with you and 
we will close out the panel.
    Mr. Keller. So I will be very brief. Again, thank you for 
having me here. I apologize for the misunderstanding, I was 
under the understanding you wanted me to talk about both our 
government claims process as well as social services.
    In a brief minute, I would just close out by saying that we 
have taken our responsibility very seriously. I understand and 
appreciate the distinction you make between those things we are 
obligated to do and those things that we do voluntarily.
    Just a nugget of information I would add is that, including 
the rig workers' fund, and other things, such as the $52 
million, in behavioral health grants and other contributions; 
of the total of a little over $1 billion that we have paid into 
the individual States in response to removal costs, lost 
revenue, and that sort, we have also, over and above our 
obligation, for every dollar spent there, have spent somewhere 
on the order of 30 cents in voluntary contributions.
    Senator Landrieu. We appreciate that, and just continue to 
in my view, I would encourage you to live up to your public 
statements that you are going to make the region whole. There 
are clearly some gaps, particularly in this area.
    Mr. Keller. And we take these things very seriously and 
will certainly look at that.
    Senator Landrieu. Thank you. Mr. Costanza.
    Mr. Costanza. Well, first of all, thank you, Senator 
Landrieu, for your leadership in bringing this human side of 
this tragedy to the forefront once again. It is critical for 
our people to recover and our communities will then recover.
    Simply, the simple task would be to continue to dialogue 
with BP and engage in conversation with NGOs, VOADs. We bring 
expertise, compassion. We leverage resources. We are effective. 
We can bring in the private dollar leverage with the other 
dollars. We, unfortunately, know how to do this well because of 
Hurricane Katrina, but we have developed relationships with 
other NGOs. We know each other. We work well. And we really 
think we could work together. We will really help people at 
this critical time so that they can recover and get on with 
their lives.
    Senator Landrieu. Thank you. Ms. West.
    Ms. West. Thank you, Senator Landrieu. I want to bring it 
to Mr. Keller's attention that when resources are limited, 
folks go to their local community organizations for assistance. 
And so the requests are demanding right now and our resources 
are limited. So we would appreciate the opportunity to continue 
engaging in conversation and take another look at these 
proposals. So thank you for the opportunity.
    Senator Landrieu. Good. And thank you all. And as you all 
know, we are drafting a piece of legislation to address some of 
these issues for future events, so we look forward to your 
input and we appreciate what you have already given us. And if 
anyone has any additional information or suggestions, please 
get that to us in the next couple of weeks.
    With that, the meeting is adjourned. Thank you.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6618.001

[GRAPHIC] [TIFF OMITTED] T6618.002

[GRAPHIC] [TIFF OMITTED] T6618.003

[GRAPHIC] [TIFF OMITTED] T6618.004

[GRAPHIC] [TIFF OMITTED] T6618.005

[GRAPHIC] [TIFF OMITTED] T6618.006

[GRAPHIC] [TIFF OMITTED] T6618.007

[GRAPHIC] [TIFF OMITTED] T6618.008

[GRAPHIC] [TIFF OMITTED] T6618.009

[GRAPHIC] [TIFF OMITTED] T6618.010

[GRAPHIC] [TIFF OMITTED] T6618.011

[GRAPHIC] [TIFF OMITTED] T6618.012

[GRAPHIC] [TIFF OMITTED] T6618.013

[GRAPHIC] [TIFF OMITTED] T6618.014

[GRAPHIC] [TIFF OMITTED] T6618.015

[GRAPHIC] [TIFF OMITTED] T6618.016

[GRAPHIC] [TIFF OMITTED] T6618.017

[GRAPHIC] [TIFF OMITTED] T6618.018

[GRAPHIC] [TIFF OMITTED] T6618.019

[GRAPHIC] [TIFF OMITTED] T6618.020

[GRAPHIC] [TIFF OMITTED] T6618.021

[GRAPHIC] [TIFF OMITTED] T6618.022

[GRAPHIC] [TIFF OMITTED] T6618.023

[GRAPHIC] [TIFF OMITTED] T6618.024

[GRAPHIC] [TIFF OMITTED] T6618.025

[GRAPHIC] [TIFF OMITTED] T6618.026

[GRAPHIC] [TIFF OMITTED] T6618.027

[GRAPHIC] [TIFF OMITTED] T6618.028

[GRAPHIC] [TIFF OMITTED] T6618.029

[GRAPHIC] [TIFF OMITTED] T6618.030

[GRAPHIC] [TIFF OMITTED] T6618.031

[GRAPHIC] [TIFF OMITTED] T6618.032

[GRAPHIC] [TIFF OMITTED] T6618.033

[GRAPHIC] [TIFF OMITTED] T6618.034

[GRAPHIC] [TIFF OMITTED] T6618.035

[GRAPHIC] [TIFF OMITTED] T6618.036

[GRAPHIC] [TIFF OMITTED] T6618.037

[GRAPHIC] [TIFF OMITTED] T6618.038

[GRAPHIC] [TIFF OMITTED] T6618.039

[GRAPHIC] [TIFF OMITTED] T6618.040

[GRAPHIC] [TIFF OMITTED] T6618.041

[GRAPHIC] [TIFF OMITTED] T6618.042

[GRAPHIC] [TIFF OMITTED] T6618.043

[GRAPHIC] [TIFF OMITTED] T6618.044

[GRAPHIC] [TIFF OMITTED] T6618.045

[GRAPHIC] [TIFF OMITTED] T6618.046

[GRAPHIC] [TIFF OMITTED] T6618.047

[GRAPHIC] [TIFF OMITTED] T6618.048

[GRAPHIC] [TIFF OMITTED] T6618.049

[GRAPHIC] [TIFF OMITTED] T6618.050

[GRAPHIC] [TIFF OMITTED] T6618.051

[GRAPHIC] [TIFF OMITTED] T6618.052

[GRAPHIC] [TIFF OMITTED] T6618.053

[GRAPHIC] [TIFF OMITTED] T6618.054

[GRAPHIC] [TIFF OMITTED] T6618.055

[GRAPHIC] [TIFF OMITTED] T6618.056

[GRAPHIC] [TIFF OMITTED] T6618.057

[GRAPHIC] [TIFF OMITTED] T6618.058

[GRAPHIC] [TIFF OMITTED] T6618.059

[GRAPHIC] [TIFF OMITTED] T6618.060

[GRAPHIC] [TIFF OMITTED] T6618.061

[GRAPHIC] [TIFF OMITTED] T6618.062

[GRAPHIC] [TIFF OMITTED] T6618.063

[GRAPHIC] [TIFF OMITTED] T6618.064

[GRAPHIC] [TIFF OMITTED] T6618.065

[GRAPHIC] [TIFF OMITTED] T6618.066

[GRAPHIC] [TIFF OMITTED] T6618.067

[GRAPHIC] [TIFF OMITTED] T6618.068

[GRAPHIC] [TIFF OMITTED] T6618.069

[GRAPHIC] [TIFF OMITTED] T6618.070

[GRAPHIC] [TIFF OMITTED] T6618.071

[GRAPHIC] [TIFF OMITTED] T6618.072

[GRAPHIC] [TIFF OMITTED] T6618.073

[GRAPHIC] [TIFF OMITTED] T6618.074

[GRAPHIC] [TIFF OMITTED] T6618.075

[GRAPHIC] [TIFF OMITTED] T6618.076

[GRAPHIC] [TIFF OMITTED] T6618.077

[GRAPHIC] [TIFF OMITTED] T6618.078

[GRAPHIC] [TIFF OMITTED] T6618A.078

[GRAPHIC] [TIFF OMITTED] T6618.079

[GRAPHIC] [TIFF OMITTED] T6618.080

[GRAPHIC] [TIFF OMITTED] T6618.081

[GRAPHIC] [TIFF OMITTED] T6618.082

[GRAPHIC] [TIFF OMITTED] T6618.083

[GRAPHIC] [TIFF OMITTED] T6618.084

[GRAPHIC] [TIFF OMITTED] T6618.085

[GRAPHIC] [TIFF OMITTED] T6618.086

[GRAPHIC] [TIFF OMITTED] T6618.087

[GRAPHIC] [TIFF OMITTED] T6618.088

[GRAPHIC] [TIFF OMITTED] T6618.089

[GRAPHIC] [TIFF OMITTED] T6618.090

[GRAPHIC] [TIFF OMITTED] T6618.091

[GRAPHIC] [TIFF OMITTED] T6618.092

[GRAPHIC] [TIFF OMITTED] T6618.093

[GRAPHIC] [TIFF OMITTED] T6618.094

[GRAPHIC] [TIFF OMITTED] T6618.095

[GRAPHIC] [TIFF OMITTED] T6618.096

[GRAPHIC] [TIFF OMITTED] T6618.097

[GRAPHIC] [TIFF OMITTED] T6618.098

[GRAPHIC] [TIFF OMITTED] T6618.099

[GRAPHIC] [TIFF OMITTED] T6618.100

[GRAPHIC] [TIFF OMITTED] T6618.101

[GRAPHIC] [TIFF OMITTED] T6618.102

[GRAPHIC] [TIFF OMITTED] T6618.103

[GRAPHIC] [TIFF OMITTED] T6618.104

[GRAPHIC] [TIFF OMITTED] T6618.105

[GRAPHIC] [TIFF OMITTED] T6618.106

[GRAPHIC] [TIFF OMITTED] T6618.107

[GRAPHIC] [TIFF OMITTED] T6618.108

[GRAPHIC] [TIFF OMITTED] T6618.109

[GRAPHIC] [TIFF OMITTED] T6618.110

[GRAPHIC] [TIFF OMITTED] T6618.111

[GRAPHIC] [TIFF OMITTED] T6618.112

[GRAPHIC] [TIFF OMITTED] T6618.113

[GRAPHIC] [TIFF OMITTED] T6618.114

[GRAPHIC] [TIFF OMITTED] T6618.115

[GRAPHIC] [TIFF OMITTED] T6618.116

[GRAPHIC] [TIFF OMITTED] T6618.117

[GRAPHIC] [TIFF OMITTED] T6618.118

[GRAPHIC] [TIFF OMITTED] T6618.119

[GRAPHIC] [TIFF OMITTED] T6618.120

[GRAPHIC] [TIFF OMITTED] T6618.121

[GRAPHIC] [TIFF OMITTED] T6618.122

[GRAPHIC] [TIFF OMITTED] T6618.123

[GRAPHIC] [TIFF OMITTED] T6618.124

[GRAPHIC] [TIFF OMITTED] T6618.125

[GRAPHIC] [TIFF OMITTED] T6618.126

[GRAPHIC] [TIFF OMITTED] T6618.127

[GRAPHIC] [TIFF OMITTED] T6618.128

[GRAPHIC] [TIFF OMITTED] T6618.129

[GRAPHIC] [TIFF OMITTED] T6618.130

[GRAPHIC] [TIFF OMITTED] T6618.131

[GRAPHIC] [TIFF OMITTED] T6618.132

[GRAPHIC] [TIFF OMITTED] T6618.133

[GRAPHIC] [TIFF OMITTED] T6618.134

[GRAPHIC] [TIFF OMITTED] T6618.135

[GRAPHIC] [TIFF OMITTED] T6618.136

[GRAPHIC] [TIFF OMITTED] T6618.137

[GRAPHIC] [TIFF OMITTED] T6618.138

[GRAPHIC] [TIFF OMITTED] T6618.139

[GRAPHIC] [TIFF OMITTED] T6618.140

[GRAPHIC] [TIFF OMITTED] T6618.141

[GRAPHIC] [TIFF OMITTED] T6618.142

[GRAPHIC] [TIFF OMITTED] T6618.143

[GRAPHIC] [TIFF OMITTED] T6618.144

[GRAPHIC] [TIFF OMITTED] T6618.145

[GRAPHIC] [TIFF OMITTED] T6618.146

[GRAPHIC] [TIFF OMITTED] T6618.147

[GRAPHIC] [TIFF OMITTED] T6618.148

[GRAPHIC] [TIFF OMITTED] T6618.149

[GRAPHIC] [TIFF OMITTED] T6618.150

[GRAPHIC] [TIFF OMITTED] T6618.151

[GRAPHIC] [TIFF OMITTED] T6618.152

[GRAPHIC] [TIFF OMITTED] T6618.153

[GRAPHIC] [TIFF OMITTED] T6618.154

[GRAPHIC] [TIFF OMITTED] T6618.155

[GRAPHIC] [TIFF OMITTED] T6618.156

[GRAPHIC] [TIFF OMITTED] T6618.157

[GRAPHIC] [TIFF OMITTED] T6618.158

[GRAPHIC] [TIFF OMITTED] T6618.159

[GRAPHIC] [TIFF OMITTED] T6618.160

[GRAPHIC] [TIFF OMITTED] T6618.161

[GRAPHIC] [TIFF OMITTED] T6618.162

[GRAPHIC] [TIFF OMITTED] T6618.163

[GRAPHIC] [TIFF OMITTED] T6618.164

[GRAPHIC] [TIFF OMITTED] T6618.165

[GRAPHIC] [TIFF OMITTED] T6618.166

[GRAPHIC] [TIFF OMITTED] T6618.167

[GRAPHIC] [TIFF OMITTED] T6618.168

[GRAPHIC] [TIFF OMITTED] T6618.169

[GRAPHIC] [TIFF OMITTED] T6618.170

[GRAPHIC] [TIFF OMITTED] T6618.171

[GRAPHIC] [TIFF OMITTED] T6618.172

[GRAPHIC] [TIFF OMITTED] T6618.173

[GRAPHIC] [TIFF OMITTED] T6618.174

[GRAPHIC] [TIFF OMITTED] T6618.175

[GRAPHIC] [TIFF OMITTED] T6618.176

[GRAPHIC] [TIFF OMITTED] T6618.177

[GRAPHIC] [TIFF OMITTED] T6618.178

[GRAPHIC] [TIFF OMITTED] T6618.179

[GRAPHIC] [TIFF OMITTED] T6618.180

                                 <all>

</pre></body></html>
